<html>
<title> - THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S FISCAL YEAR 2015 BUDGET REQUEST: ENSURING EFFECTIVE PREPAREDNESS, RESPONSE, AND COMMUNICATIONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   THE FEDERAL EMERGENCY MANAGEMENT 
                   AGENCY'S FISCAL YEAR 2015 BUDGET 
 REQUEST: ENSURING EFFECTIVE PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                  OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2014

                               __________

                           Serial No. 113-58

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                      ---------------------


                   U.S. GOVERNMENT PRINTING OFFICE
88-558 PDF                 WASHINGTON : 2014

---------------------------------------------------------------------

For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  



                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                        Vacancy, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Susan W. Brooks, Indiana, Chairwoman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Steven M. Palazzo, Mississippi,      Yvette D. Clarke, New York
    Vice Chair                       Brian Higgins, New York
Scott Perry, Pennsylvania            Bennie G. Thompson, Mississippi 
Mark Sanford, South Carolina             (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
            Eric B. Heighberger, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     5
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications........     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                                Witness

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                             For the Record

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Letter.........................................................     2
  Letter From the National Association of Realtors...............     3

                                Appendix

Questions From Chairwoman Susan W. Brooks For W. Craig Fugate....    45


   THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S FISCAL YEAR 2015 BUDGET 
 REQUEST: ENSURING EFFECTIVE PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                              ----------                              


                        Tuesday, March 25, 2014

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Susan W. Brooks 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Brooks, Palazzo, Sanford, Payne, 
Clarke, and Higgins.
    Also present: Representative Jackson Lee.
    Mrs. Brooks. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony from 
administrator Craig Fugate on the President's fiscal year 2015 
budget request for the Federal Emergency Management Agency. I 
now recognize myself for an opening statement.
    The House Homeland Security Committee recently held a 
hearing on the President's fiscal year 2015 budget request for 
the Department of Homeland Security at which time Secretary 
Johnson testified. This subcommittee will continue that 
oversight today with a more in-depth review of the President's 
request for the Federal Emergency Management Agency known as 
FEMA.
    The President's fiscal year 2015 budget requests $10.3 
billion for programs and operations at FEMA. This is a 3 
percent increase from fiscal year 2014 enacted level. It is 
important in these difficult fiscal times that FEMA can fulfill 
its mission while at the same time be a good steward of 
taxpayer money.
    We need to ensure that our Nation is equipped to prepare 
for, respond to, and mitigate against disasters and ensure that 
our first responders have the training, tools, and resources 
needed in order to continue to do their important work.
    Administrator Fugate, I am interested in hearing more today 
about how you propose to allocate the resources to sustain 
FEMA's current missions and what strategic priorities you will 
focus on in 2015. For the third year in a row, the budget 
request proposes some significant changes within the State and 
local programs account, consolidating a number of Homeland 
Security grant programs into a new National Preparedness Grant 
Program, NPGP.
    I am pleased that FEMA has finally submitted a legislative 
proposal with this year's request. As our subcommittee 
continues to review the proposal, we do have quite a few 
questions about it. So I am interested in learning more about 
the many aspects of the proposal and how it will be 
implemented.
    I have questions about the two funding pots, the 
sustainment and the competitive, and how these funds will be 
allocated to States, high-risk urban areas, port authorities, 
and transit agencies. I also have questions about and am 
concerned with the proposed elimination of the 25 percent set-
aside for law enforcement terrorism prevention activities.
    State and local prevention activities including the 
sustainment of the National network of fusion centers have 
played a vital role in our Nation's ability to disrupt a 
potential terrorist attack.
    Moving forward, we need to remember that the purpose of 
these grants as detailed in the 9/11 Act are for preventing, 
preparing for, protecting against, and responding to acts of 
terrorism.
    So I hope you will be able to provide us with greater 
clarity on this proposal and other questions as we have related 
to the NPGP proposal. I look forward to working with my fellow 
subcommittee and full committee Members and the many 
stakeholder groups as we continue to review and consider this 
proposal.
    At this time, I ask unanimous consent to insert a letter 
from a number of stakeholder groups including the U.S. 
Conference of Mayors, the International Association of Fire 
Chiefs, the major cities chiefs, and the International 
Association of Emergency Managers regarding the NPGP proposal. 
Without objection, so ordered.
    [The information follows:]
                Letter Submitted by Hon. Susan W. Brooks
                                    March 24, 2014.
The Honorable Harold Rogers,
Chairman, Committee on Appropriations, U.S. House of Representatives, 
        Washington, DC 20515.
The Honorable Nita Lowey,
Ranking Member, Committee on Appropriations, U.S. House of 
        Representatives, Washington, DC 20515.
The Honorable John Carter,
Chairman, Subcommittee on Homeland Security, Committee on 
        Appropriations, U.S. House of Representatives, Washington, DC 
        20515.
The Honorable David Price,
Ranking Member, Subcommittee on Homeland Security, Committee on 
        Appropriations, U.S. House of Representatives, Washington, DC 
        20515.
Dear Mr. Rogers, Ms. Lowey, Mr. Carter, and Mr. Price: As you begin 
development of Fiscal Year (FY) 2015 appropriations legislation, we 
write on behalf of local elected officials, emergency managers, port 
operators, police chiefs and colonels, sheriffs, and the major fire 
service organizations to urge you once again not to implement the 
Federal Emergency Management Agency's (FEMA's) National Preparedness 
Grant Program (NPGP) proposal through the appropriations process.
    The NPGP proposal would convert the current suite of homeland 
security grant programs into state-administered block and competitive 
grant programs in which funding decisions are based on state and multi-
state threat assessments without clear local involvement. We appreciate 
the fact that thus far Congress has rejected the Administration's 
proposed NPGP and agreed with us that any changes to the grant programs 
must be considered by the authorizing committees. We are confident that 
the authorizing committees will give careful consideration to FEMA's 
specific proposals and any other proposals submitted.
    As an alternative to the NPGP, our organizations have developed and 
agreed on a set of principles for reforming the homeland security grant 
programs: transparency, local involvement, flexibility and 
accountability, local funding, terrorism prevention, and incentives for 
regionalization. We look forward to working with Congress and the 
Administration to develop changes to the grant programs that are 
consistent with these principles, and that will improve the programs in 
the years ahead.
    We also want to take this opportunity to thank you for including 
language in the FY 2014 omnibus appropriations bill that would prohibit 
FEMA from implementing the NPGP in FY 2014 without explicit 
congressional authorization. Thank you also for providing specific 
funding levels for each homeland security grant program, including the 
State Homeland Security Grant Program, Urban Areas Security Initiative, 
port security, and transportation security grant programs.
    If we can provide further information or assistance, please contact 
us through the U.S. Conference of Mayors' Public Safety Director, or 
the International Association of Fire Chiefs' Director of Government 
Relations and Policy.
            Sincerely,
        American Association of Port Authorities, Big City 
Emergency Managers, Congressional Fire Services Institute, 
            International Association of Chiefs of Police, 
   International Association of Fire Chiefs, International 
         Association of Fire Fighters, Major Cities Chiefs 
 Association, Major County Sheriffs' Association, National 
       Association of Counties, National Homeland Security 
  Coalition, National League of Cities, National Sheriffs' 
  Association, National Volunteer Fire Council, The United 
          States Conference of Mayors, U.S. Council of the 
International Association of Emergency Managers (IAEM-USA).

    Mrs. Brooks. I also ask unanimous consent to insert a 
letter from the National Association of Realtors with respect 
to the Homeowner Flood Insurance Affordability Act. Without 
objection, so ordered.
    [The information follows:]
            Letter From the National Association of Realtors
                                    March 24, 2014.
The Honorable Susan Brooks,
Chairwoman, House Subcommittee on Emergency Preparedness, Response, and 
        Communications, 1505 Longworth House Office Building, 
        Washington, DC 20515.
    Dear Chairwoman Brooks: Thank you for holding this important 
hearing on the Federal Emergency Management Agency's 2015 budget 
request. REALTORS believe this is a critical and timely opportunity to 
learn more about FEMA's plans for implementing recently enacted flood 
insurance legislation.
    As enacted, the Homeowner Flood Insurance Affordability Act (HR 
3370) would resolve most of the unintended consequences of Biggert-
Waters implementation. However, the effectiveness of this new law will 
depend on FEMA's ability to take quick action on a number of 
provisions:
    (1) Assumption of Current Policies/Rates.--The law was designed to 
        provide immediate rate relief to the home buyers, by allowing 
        them to ``assume'' the policies and current rates of sellers. 
        The purpose was to prevent skyrocketing flood insurance over 
        the next year while FEMA works to implement the rest of the 
        law. FEMA needs to act quickly to implement this critical 
        provision so home buyers have the option to assume current 
        policies and rates.
    (2) Refunds.--The new law calls for an 8-month roll-out of new rate 
        tables and guidelines for FEMA to issue refunds. In the 
        interim, recent home owners need to know whether they will need 
        to apply for a refund, what they can do to prepare, and what 
        happens if they sell their homes before FEMA begins issuing 
        those refunds. Also buyers of second homes will need to know 
        whether they are eligible for refunds if they saw a rate 
        increase that exceeded 25% per year. It would help to know how 
        FEMA intends to meet the 8-month deadline and where to direct 
        home owners to begin getting answers to these and other 
        questions.
    (3) Flood Insurance Advocate.--The Advocate will provide a single 
        point of contact at FEMA to help home owners begin to answer 
        refund and other questions about flood maps and rate increases.
    (4) Flood Map Certification.--FEMA is required to certify when it 
        has implemented a flood map program based on scientific review 
        of a Technical Mapping Advisory Council. FEMA's plans and 
        timeline to establish this Council in order to begin reviewing 
        the accuracy of flood maps are crucial.
    (5) Flood Insurance Summit.--FEMA agreed to participate in a flood 
        insurance summit with affected stakeholders. As we work to 
        implement this new law and look ahead to the next 
        reauthorization, we hope to make this beneficial summit a 
        reality for all involved.
    REALTORS thank you for the opportunity to submit these comments. 
It would be good to hear from Administrator Fugate to address these 
issues during your hearing. We look forward to working with you as FEMA 
continues to implement the new flood insurance law and address the rate 
affordability under the National Flood Insurance Program.
            Sincerely,
                                                Steve Brown
                 2014 President, National Association of REALTORS.

    Mrs. Brooks. I am encouraged to see that the Department 
took advantage of the discretion provided by Congress for 
fiscal year 2014 Homeland Security grant program and expanded 
the number of cities eligible for the Urban Area Security 
Initiative or UASI funding. After falling off the list in 2013, 
Indianapolis is once again an eligible urban area.
    The city of Indianapolis hosts many, many top-notch events 
including our upcoming Indianapolis 500 that require our public 
safety officials to have proper training, equipment, and 
strategic planning. Previous UASI funding has played a vital 
role in ensuring our first responders were prepared for these 
events.
    As we continue to recover from disasters, such as 
superstorm Sandy, we must also evaluate how we are working to 
become more resilient and mitigate the damages caused by these 
storms. We also must ensure that we are always looking for ways 
to rebuild faster, stronger, and more efficiently.
    So I was a bit surprised to see that the President's budget 
request again proposes to eliminate the Pre-Disaster Mitigation 
program. However, it is my understanding that through the 
Opportunity, Growth, and Security Initiative proposal, $400 
million would be allocated to a competitive grant program that 
would be administered through the Pre-Disaster Mitigation 
program.
    So I would like to hear a bit more about the rationale 
behind this change. Finally, the use of social media has been a 
focus of this subcommittee and it has become a new reality for 
how first responders and survivors communicate before, during, 
and after a disaster.
    The recent explosion in East Harlem, the Boston Marathon 
bombings, which happened about a year ago, and superstorm Sandy 
are just examples of how citizens are turning to Facebook and 
Twitter for information and to comfort survivors.
    During two subcommittee hearings held this past year, we 
have heard from numerous stakeholders, including the private 
sector, on this new reality.
    Two weeks ago, I, along with Ranking Member Payne, Vice 
Chairman Palazzo, and Mr. Swallwell introduced a bill to 
authorize the Department's virtual social media working group. 
I am interested in learning more about what FEMA is doing to 
incorporate social media into their preparedness response and 
recovery missions.
    With that, I am very pleased to welcome Administrator 
Fugate here today. I look forward to your testimony. As always, 
thank you for your service.
    [The statement of Chairwoman Brooks follows:]
                Statement of Chairwoman Susan W. Brooks
    The House Homeland Security Committee recently held a hearing on 
the President's fiscal year 2015 budget request for the Department of 
Homeland Security (DHS), at which Secretary Johnson testified. This 
subcommittee will continue that oversight today with a more in-depth 
review of the President's request for the Federal Emergency Management 
Agency (FEMA).
    The President's fiscal year 2015 budget requests $10.3 billion for 
programs and operations at FEMA. This is a 3 percent increase from the 
fiscal year 2014 enacted level. It is important that in these difficult 
fiscal times that FEMA can fulfill its missions while at the same time 
be a good steward of taxpayer money. We need to ensure that our Nation 
is equipped to prepare for, respond to, and mitigate against disasters 
and ensure that our first responders have the training, tools, and 
resources needed in order to continue to do their important work.
    Administrator Fugate, I am interested in hearing more about how you 
propose to allocate resources to sustain FEMA's current missions and 
what strategic priorities you will focus on in 2015.
    For the third year in a row, the budget request proposes major 
changes within the State and Local Programs account, consolidating a 
number of homeland security grant programs into a new National 
Preparedness Grant Program (NPGP). I am pleased that FEMA has finally 
submitted a legislative proposal with this year's request.
    As the subcommittee continues to review the proposal, we have a lot 
of questions. I am interested in learning more about many aspects of 
the proposal and how it would be implemented. I have questions about 
the two funding pots--sustainment and competitive--and how these funds 
will be allocated to States, high-risk urban areas, port authorities, 
and transit agencies.
    I also have questions about, and am concerned with, the proposed 
elimination of the 25% set-aside for law enforcement terrorism 
prevention activities. State and local prevention activities, including 
the sustainment of the National Network of Fusion Centers, have played 
a vital role in our Nation's ability to disrupt a potential terrorist 
attack. Moving forward, we need to remember that the purpose of these 
grants, as detailed in the 9/11 Act, are for ``preventing, preparing 
for, protecting against, and responding to acts of terrorism.''
    I hope you will be able to provide us with greater clarity on 
these, and other, questions we have related to the NPGP proposal. I 
look forward to working with my fellow subcommittee and full committee 
Members and the many stakeholder groups as we continue to review and 
consider this proposal. At this time I ask unanimous consent to insert 
a letter from a number of stakeholder groups, including the U.S. 
Conference of Mayors, the International Association of Fire Chiefs, the 
Major Cities Chiefs, and the International Association of Emergency 
Managers, regarding the NPGP proposal.
    I was encouraged to see that the Department took advantage of the 
discretion provided by Congress for Fiscal Year 2014 Homeland Security 
Grant Program and expanded the number of cities eligible for Urban Area 
Security Initiative (UASI) funding. After falling off the list in 2013, 
Indianapolis is once again an eligible urban area. The city of 
Indianapolis hosts many top-notch events, including the upcoming 
Indianapolis 500, that require our public safety officials to have the 
proper training, equipment, and strategic planning. Previous UASI 
funding has played a vital role in ensuring our first responders were 
prepared for these events.
    As we continue to recover from disasters, such as Superstorm Sandy, 
we must evaluate how we are working to become more resilient and 
mitigate the damage caused by these storms. We also must ensure that we 
are always looking for ways to rebuild faster, stronger, and more 
efficiently.
    I was surprised to see that the President's budget request again 
proposes to eliminate the Pre-Disaster Mitigation program. However, it 
is my understanding that through the Opportunity, Growth, and Security 
Initiative proposal, $400 million would be allocated to a competitive 
grant program that would be administered through the Pre-Disaster 
Mitigation program. I would like to hear more about the rationale 
behind this.
    The use of social media has become a new reality for how first 
responders and survivors communicate before, during, and after a 
disaster. The recent explosion in East Harlem, the Boston Marathon 
bombings, and Superstorm Sandy are just some examples of how citizens 
are turning to Facebook and Twitter for information and to comfort to 
survivors. During two subcommittee hearings last year, we heard from 
numerous stakeholders, including the private sector, on this new 
reality. Two weeks ago I, along with the Ranking Member Payne, Vice 
Chairman Palazzo, and Mr. Swalwell, introduced a bill to authorize the 
Department's Virtual Social Media Working Group. I am interested in 
learning more about what FEMA is doing to incorporate social media into 
their preparedness, response, and recovery missions.
    With that, I am pleased to welcome Administrator Fugate here today. 
I look forward to your testimony.

    Mrs. Brooks. The Chairwoman now recognizes the gentleman 
from New Jersey, Mr. Payne, for any opening statement he may 
have.
    Mr. Payne. Thank you, and good morning.
    Mrs. Brooks. Good morning.
    Mr. Payne. I would like to thank Chairwoman Brooks for 
holding this hearing and giving this subcommittee the 
opportunity to learn more about the fiscal year 2015 budget 
request for Federal Emergency Management Agency. Earlier this 
month, Secretary Johnson testified before the full committee on 
the fiscal year 2015 budget submission for the Department of 
Homeland Security.
    Members of this panel raised a litany of concerns ranging 
from how future budget caps will affect operations to whether 
resources are being allocated effectively to enhance security. 
There was one topic, however, that generated significant 
bipartisan interest--FEMA's proposal to consolidate 18 distinct 
Homeland Security grants into one.
    This is not FEMA's first attempt at a wide-scale 
consolidation of these programs. It is the third attempt. In 
the past, when Members asked about the potential changes and 
how funding would be awarded under the consolidation proposal, 
FEMA stressed that it was not focused on the specifics of which 
cities would receive funding. Instead, it was concerned about 
building National capabilities.
    So before we go down that road for the third time, I want 
to be clear about where Members on this panel, at least the 
Democratic side, are coming from. The attacks of September 11, 
2001, shook America to its core. Prior to 9/11, we only saw 
disasters in terms of natural disasters--hurricanes, 
earthquakes, tornadoes, et cetera.
    Mother Nature can be vicious. But over the years, thanks to 
investments in disaster preparedness and recovery, it is an 
enemy we can anticipate. The attacks of September 11, in 
contrast, we did not see coming. Unlike a natural disaster, we 
did not know, at least initially, when it would be over.
    Despite our military strength, our intelligence, resources, 
and the first responder technologies, Americans has learned 
that day that we are vulnerable to terrorism. Unfortunately, 
last year, the Boston marathon bombings brought the 
unpredictable nature of terrorism into focus once again.
    Americans have come to understand that the might of our 
military will not stop terrorists from trying to attack our 
streets. Fragments of intelligence only tell a full story if 
the information is shared with the right people. I represent 
northern New Jersey.
    I have seen first-hand the death and destruction caused by 
terrorist attacks and natural disasters. Both the 9/11 attacks 
and Hurricane Sandy were deadly, heartbreaking, and caused 
significant economic damage. The nature of terrorism demands a 
very different preparedness, response, and mitigation approach 
than approaching a storm or other natural disaster.
    New Jersey's first responders were some of the first to 
attend to the aftermath of 9/11. They again were called to 
respond following Hurricane Sandy.
    Depending on the type of disaster, what is asked of our 
first responders is vastly different.
    Asking any firefighter, what is the demand of him in 
response to a traditional fire is vastly different from what is 
required to respond to a blaze caused by an act of terrorism 
where biological toxins may have been released or booby-traps 
may have been laid.
    In recognition of the difference and the need to build core 
terrorism preparedness and response capabilities, Congress 
established the Homeland Security grant program.
    So as we begin our discussion on grant consolidation today, 
you will find that the concerns expressed about your proposal 
are fundamental. What is at stake goes far beyond parochial 
considerations about who gets the money.
    It is about how we take the lessons learned from 9/11 to 
make our communities more secure in the absence of a dedicated 
and discreet terrorism preparedness and response grant 
programs, which is exactly what would occur under your 
consolidation proposal.
    How can we be assured that the funds we appropriate will be 
used to achieve interoperability, harden and protect critical 
infrastructure, and address the other vulnerabilities that were 
first identified by the 9/11 commission?
    I want to thank Administrator Fugate for being here today. 
I look forward to his testimony. I yield back the balance of my 
time.
    Mrs. Brooks. Other Members of the subcommittee are reminded 
that opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
    As authorizers, we have a responsibility to understand the needs 
and priorities of the Department.
    It is our duty to vet the various budget proposals included in the 
budget request, and to question the assumptions underlying conclusions 
that program and policy changes will increase efficiency and achieve 
savings.
    The level of examination required of us goes beyond a full 
committee hearing on the entire DHS budget request.
    In the past, subcommittees of this committee have held hearings to 
more closely review the budget request of the offices and components 
within DHS.
    Unfortunately, that is no longer the common practice.
    In light of restrictive budget caps, we need to understand what 
programs at DHS need resources, how we can invest funds more 
effectively, and whether components can sustain existing programs under 
budget limitations.
    In short, we need to understand how adhering to the budget caps 
will cost homeland security.
    So, I appreciate this subcommittee's effort to take a closer look 
at FEMA's budget proposal.
    Administrator Fugate, for the third year in a row, FEMA proposes to 
consolidate 18 target grant programs into the National Preparedness 
Grant Program (NPGP).
    The last two times FEMA submitted the grant consolidation proposal, 
Members of this panel expressed concern about the apparent lack of 
stakeholder outreach.
    Members questioned whether FEMA requested sufficient funding for 
the program.
    And were the lack of detail.
    This is the third time FEMA has proposed the NPGP, and it seems 
that we're about to have the same conversation we had 2 years ago when 
the program was first proposed.
    The stakeholders who have contacted my office said that the limited 
``outreach'' from FEMA has taken the form of briefings, rather than 
engagement, and that it has been sporadic, rather than on-going.
    Indeed, Congress only gets roped into the discussion in the month 
or so following the budget submission.
    FEMA requests about $1.04 billion for NPGP for fiscal year 2015.
    But when the Homeland Security Grant Program was funded at that 
level in fiscal year 2012, FEMA echoed the concerns raised by Democrats 
on this panel that that funding was not sufficient to address the 
vulnerabilities of State and local preparedness capabilities.
    With State and local budgets stretched as thin as they are today, I 
find it hard to believe that State and local programs need less support 
today than they did 2 years ago.
    I understand that $300 million in addition funding for NPGP was 
requested in the President's Opportunity, Growth, and Security 
Initiative.
    But the practical reality is that the OGSI funding is unlikely to 
come to fruition under the current House leadership.
    And I have to believe that FEMA and the administration understood 
the OGSI funding to be a long shot when it was proposed.
    So, I want to understand the rationale behind seeking a $300 
million reduction for State and local programs.
    Finally, given the important role the Homeland Security Grant 
Program has played in strengthening information sharing and 
preparedness related to terrorist attacks, we wanted to understand how 
the NPGP would work.
    This year, we received legislative language for NPGP.
    We did not, however, get any more clarity about the structure of 
the program.
    Indeed, depending on what document you read--the Congressional 
Budget Justification or the legislative proposal--it is possible to 
draw different conclusions. After 2 years, that is disappointing.

    Mrs. Brooks. We are pleased to welcome Administrator Fugate 
before the subcommittee.
    Mr. Fugate was appointed by President Obama to serve as the 
administrator of the Federal Emergency Management Agency and 
was confirmed by the United States Senate on May 13, 2009.
    Prior to coming to FEMA, Mr. Fugate served as the director 
of the Florida Division of Emergency Management, a position he 
held for 8 years. Mr. Fugate began his emergency management 
career as a volunteer firefighter, emergency paramedic, and 
finally, as a lieutenant with the Alachua County fire rescue.
    Mr. Fugate and his wife hail from Gainesville, Florida.
    Welcome, Administrator. Your entire written statement will 
appear in the record. We ask that you summarize your testimony. 
You are now recognized and welcomed before the subcommittee.

STATEMENT OF W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Thank you, Madam Chairwoman, Members, Ranking 
Members. You have my written testimony. I think I want to go to 
leave as much time for questions. But I want to take on the 
National Preparedness Grants.
    I think it is not our intention to divert them away from 
terrorism. It is not our intention to divert or set aside or 
exclude any group from that. If anything, it is following the 
Constitution of the United States.
    Again, I know there are a lot of groups. I know that 
Congress ultimately has the authority to authorize and 
appropriate the funds. But when disaster strikes, whatever the 
cause, including terrorism, our Constitution has divided the 
powers between Federal and State to give the State the primary 
responsibility to respond to domestic emergencies, including 
terrorist acts and the consequences of those acts.
    Only the Governor can call out the National Guard. Only the 
Governor can request assistance from the Federal Government. To 
exclude the Governor from the planning process and allocation 
of funds literally goes around our Constitution, which sets up 
the responsibilities of the States. It also goes around State 
constitutions.
    As a former local, State, and now Federal, I have worked at 
all levels of government. I can tell you that the original 
funding strands were not separated out by jurisdictions. 
Although they were in different pots of money, they all came to 
the State.
    Because of the complaints and concerns of many local 
officials who felt the money wasn't reaching them, Congress 
made the decision to begin funding cities specifically. That 
probably makes sense in States where cities are the primary 
capability in response to disasters.
    My State, Florida, counties are often bigger. We had a 
situation where we had funds going to smaller municipalities 
that set within the larger county and larger capabilities of 
the overall risk.
    Because these funds did not reflect the State constitutions 
of who and how authorities distributed between State and local 
officials, some States are very much--very powerful home rule, 
where local officials would have the primary overall 
responsibility for direction.
    In other cases, it is primarily at the State level. So 
again, this was not an intent to bypass or to eliminate any 
group from funding, but to better recognize the central role 
that States would have when disasters exceed the capabilities 
of local jurisdiction, including terrorist attacks, but also 
making sure as the authorizing language I hope is trying to get 
to, prioritizing those known areas, those urban security areas 
in preserving funding for that, but giving States better 
discretion, ensuring that funding is based upon the overall 
issue that the State faces, not jurisdiction by jurisdiction.
    The reason we looked at this Nationally was probably when 
you look at the threats we face, when you look at things like 
improvised nuclear devices, we know that no one jurisdiction 
would ever have the capability to respond to that. We are going 
to have to bring resources from across the Nation.
    So in looking at the various threats, some of which are 
terrorist-based, some of which are natural disasters, we 
started adding up the numbers, the casualties, fatalities, 
injuries, search and rescue, immediate recovery needs. In 
looking at that, we began identifying critical capabilities and 
gaps in that.
    So part of this was to address the funding, not only hoping 
that by jurisdiction by jurisdiction, it adds up to National 
capability, but actually driving some of the bigger risks and 
threats as an overall National response, and how do you build 
that capability and direct that funding, part of this would 
remain by the 9/11 statute, grant funding based upon the 
division between the States.
    Well the other has to be competitive so that we could see 
in some areas of this country where maybe sponsorship by one 
State or one community could provide resources to an area 
versus each jurisdiction trying to build that capability. I 
know there are a lot of concerns about that distribution of 
funds.
    I know there are concerns about our jurisdiction, my 
jurisdiction, getting what we need. I also hear this a lot--
there is not a lot of trust out there.
    Well, that also concerns me because in these types of 
large-scale events, if we can't agree upon our responsibilities 
and work together as a team, how does that work when a real 
disaster that exceeds that jurisdiction's capability and that 
requires all of our capabilities, not just the local 
jurisdiction, the State of impact, or Federal resources, but 
multiple States and multiple jurisdictions, responding to these 
types of events.
    Whether they are natural, terrorist, or technological, the 
Nation needs to look at all these resources, to build 
capability just to face the threats we face. We can do it 
jurisdiction by jurisdiction. But our recommendation is to look 
at it as a Nation and base it upon the structures of our 
States, not taking away from the importance of local 
responders, local jurisdictions or those risks, but recognizing 
that when it does happen, it will be the Governor's primary 
responsibility on that State to coordinate all of that response 
with the Federal Government assisting. That is what is driving 
this request.
    Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Fugate follows:]
                 Prepared Statement of W. Craig Fugate
                             March 25, 2014
                              introduction
    Good Morning Chairman Brooks, Ranking Member Payne, and Members of 
the subcommittee. My name is Craig Fugate, and I am the administrator 
at the U.S. Department of Homeland Security's (DHS) Federal Emergency 
Management Agency (FEMA). It is an honor to appear before you today to 
discuss FEMA's fiscal year 2015 budget request.
    FEMA's mission is to support our citizens and first responders to 
ensure that, as a Nation, we work together to build, sustain, and 
improve our capability to prepare for, protect against, respond to, 
recover from, and mitigate all hazards.
    The fiscal year 2015 President's budget request provides the level 
of resources required, in a balanced and prioritized manner, to support 
the agency's ability to fulfill its emergency management mission, while 
recognizing the budgetary controls and needs of the agency.
    The fiscal year 2015 budget request reflects FEMA's priority to 
manage resources effectively across the Federal Government while 
ensuring the Nation's resilience to disasters. Under my direction, the 
agency continues to re-examine its current allocation of resources to 
consider the relative return on investment and to better focus on those 
programs that have the most significant impact on the agency's ability 
to fulfill its overall mission. Moreover, FEMA will continue to build 
on its successful past efforts to streamline and enhance current 
business processes, while using smart and innovative technologies to 
better maximize the delivery of services and the efficient use of 
available resources.
    The agency's budget request is guided by the Administrator's Intent 
for Fiscal Year 2015-2019 (Intent), and its five strategic priorities: 
(1) Be survivor-centric in mission and program delivery; (2) become an 
expeditionary organization; (3) posture and build capability for 
catastrophic disasters; (4) enable disaster risk reduction Nationally; 
and (5) achieve business and management excellence. FEMA is committed 
to leveraging our authorities and focusing our policies, programs, and 
budget choices to best support our citizens and first responders in 
working together to ensure our Nation's resilience to disasters. To 
deliver on this commitment, this Intent also provides two guiding 
principles to frame our thinking, build our budget request, guide our 
decisions, and shape our approach to mission and program execution, 
which are: (1) A whole community approach to emergency management and 
(2) fostering innovation and learning.
    This testimony will review the initiatives the agency hopes to 
pursue in fiscal year 2015 through the lens of the Intent and the 
strategic priorities.
                          disaster relief fund
    The Disaster Relief Fund (DRF) provides individual and public 
assistance to help families and communities affected by declared 
disasters to rebuild and recover, as well as mitigation funds to reduce 
the impact of future disasters. The fiscal year 2015 DRF budget request 
is consistent with the Budget Control Act of 2011 (Pub. L. No. 112-25) 
and totals $7.03 billion, in addition to carry-over and recoveries. The 
DRF request for fiscal year 2015 includes estimated costs for prior 
catastrophic events (including Hurricane Sandy), a 10-year average 
level for non-catastrophic disasters, and funds for DRF Base activities 
(i.e., Emergencies, Pre-disaster Surge Support, Fire Management 
Assistance Grants, and Disaster Readiness Support). The request also 
includes a $1 billion set-aside for no-notice events, which should also 
support initial funding needs of a new catastrophic event. FEMA will 
continue to maximize the use of DRF resources by working closely with 
States, localities, and Tribes and through the use of its authorities 
and policies, including Strategic Funds Management, which is FEMA's 
process for obligating Public Assistance project funding based on a 
subgrantee's schedule to execute the eligible work. As in the fiscal 
year 2014 Omnibus, the DRF fiscal year 2015 request also includes a 
$200 million rescission to Base balances in anticipation of unspent 
carry-over balances and expected additional recoveries.
           continuing to implement major legislative changes
Sandy Recovery Improvement Act of 2013
    As part of the Disaster Relief Appropriations Act, 2013, on January 
29, 2013, President Obama signed into law, the Sandy Recovery 
Improvement Act (SRIA) (Pub. L. No. 113-2) authorizing several 
significant changes to the way FEMA delivers disaster assistance. SRIA 
is one of the most significant pieces of legislation impacting disaster 
response and recovery since the Post-Katrina Emergency Management 
Reform Act of 2006. FEMA began implementing the provisions of SRIA 
while it was still helping survivors recover from Hurricane Sandy.
    FEMA has developed and implemented pilot programs to use new 
authorities for Public Assistance (PA) Alternative Permanent Work and 
PA Debris Removal programs as part of its implementation of SRIA. When 
these pilots are completed, we believe the data will show that these 
programs speed recovery by empowering applicants with more choices, 
enabling better and timelier decisions that align with communities' 
recovery priorities, putting applicants in the driver's seat of their 
own recovery and reducing administrative costs.
Biggert-Waters Flood Insurance Reform Act of 2012
    The agency is also implementing the Biggert-Waters Flood Insurance 
Reform Act of 2012, (Div. F, Subtitle C, of the ``Moving Ahead for 
Progress in the 21st Century Act'' or ``MAP-21'' (Pub. L. No. 112-
141)), which aimed to make the National Flood Insurance Program (NFIP) 
more actuarially-sound and to make flood insurance rates better reflect 
real flooding risks.
    The law requires changes to all of the major components of the 
NFIP, including flood insurance, flood hazard mapping, grants and 
floodplain management, and we are working to implement those 
provisions. These changes are being phased in over time and are 
consistent with the direction provided in the Department of Homeland 
Security Appropriations Act, 2014 (Division F of the Consolidated 
Appropriations Act, 2014 (Pub. L. No. 113-76)).
    The Department of Homeland Security Appropriations Act, 2014 delays 
all work on implementing Section 207 of the Biggert-Waters Act, until 
Oct. 1, 2014. However, it neither amends nor changes the requirements 
in Section 207 and once funding is made available, FEMA will be 
required to continue with implementation. This means that flood map 
changes that increase risk and were adopted by communities after July 
6, 2012, as directed by Congress, will eventually phase out of 
grandfathered rates retroactively once Section 207 implementation 
occurs. As part of the NFIP, FEMA identifies flood hazards, assesses 
flood risks, and partners with States, Tribes, and communities to 
provide accurate flood hazard and risk data, more accurately capturing 
flood hazard conditions now more than ever before with the Risk 
Mapping, Assessment, and Planning program.
    FEMA estimates that it will take an additional 12-18 months to 
implement Section 207 once funding is restored.
    The fiscal year 2015 request includes $84.4 million to continue 
FEMA's Flood Map Modernization Fund and its long-term efforts to 
address existing gaps in the flood hazard data inventory and address 
changes that continue to occur over time.
                          strategic priorities
    FEMA's budget request is consistent with the Administrator's Intent 
and its strategic priorities. Below we have focused on some of the 
high-profile programs, policies, and priorities that the agency hopes 
to continue, modify, or implement in fiscal year 2015.
Strategic Priority One: Be Survivor-Centric in Mission and Program 
        Delivery
    As part of FEMA's effort and its stated strategic priority to be 
survivor-centric in mission and program delivery, the agency is 
proposing moving its Emergency Food and Shelter (EFS) program to the 
Department of Housing and Urban Development (HUD).
    The fiscal year 2015 request is consistent with previous requests 
and reflects a focus on FEMA's primary mission of preparing for and 
coordinating disaster response and recovery efforts, while ensuring 
continued substantial support for the non-disaster EFS program. The 
budget proposes a transfer of the EFS program to HUD, as the core 
function of the program more closely aligns with HUD's primary mission 
and thus will provide the best service to survivors. This transfer will 
further reduce fragmentation and duplication of services among Federal 
homeless assistance programs, addressing a challenge highlighted by GAO 
and others.
Strategic Priority Two: Become an Expeditionary Organization
    As part of FEMA's effort and its stated strategic priority to 
become an expeditionary organization, the agency is working to develop 
a leaner, more agile workforce that is well-equipped, educated, and 
trained. As part of this goal, FEMA is also working to ensure its 
workforce is appropriately-sized, organized, and distributed to rapidly 
mobilize, deploy, and conduct missions, while being fully supported by 
FEMA's technology and infrastructure.
Strategic Priority Three: Posture and Build Capability for Catastrophic 
        Disasters
    As part of FEMA's effort and its stated strategic priority to 
posture and build capability for catastrophic disasters, the 
administration is proposing the National Preparedness Grant Program 
(NPGP) and additional funding for NPGP in the Opportunity, Growth, and 
Security Initiative (OGSI). The fiscal year 2015 NPGP will work to 
build and sustain core capabilities in the National Preparedness Goal, 
recognizing that a secure and resilient Nation is one with the 
capabilities required, across the whole community, to prevent, protect 
against, mitigate, respond to, and recover from the threats and hazards 
that pose the greatest risk. The NPGP draws upon and strengthens 
existing grants processes, procedures and structures, emphasizing the 
need for greater collaboration and unity among Federal, State, local, 
Tribal and territorial partners.
            National Preparedness Grant Program
    NPGP proposes to maximize the impact and benefit of grants for the 
whole community's capacity to be prepared based on risks. The 
legislative language that would be required to fully implement the NPGP 
has been shared with FEMA's authorizers and appropriators, and we look 
forward to working with Congress as they consider these important 
legislative changes.
    The NPGP would consolidate current State/local preparedness grant 
programs into one comprehensive and overarching program (excluding 
Emergency Management Performance Grants and Fire Grants), which 
eliminates redundancies and requirements for both grantees and the 
Federal Government based on the current system of multiple individual 
and often disjointed grant programs.
    Consistent with Presidential Policy Directive 8, the NPGP 
prioritizes building and sustaining core capabilities to address high-
consequence events posing the greatest risk to U.S. security and 
resilience. The NPGP will use the Threat and Hazard Identification and 
Risk Assessment (THIRA) process to guide the development of core 
capabilities.
    State, Tribal, and local governments would be able to prioritize 
their need and maximize the use of grant funds for the greatest whole-
community impact, with Tribal governments having the ability to receive 
direct funding. This process, and the creation of NPGP, will also 
ensure that grantees have the ability to build and sustain capabilities 
that can be deployed not just on the local level, but on the regional 
and National levels as well--creating an interconnected network of 
local, Tribal, State, regional, and National capabilities to increase 
the security of the whole Nation.
    Implementing the NPGP will also improve the efficiency of the grant 
programs by eliminating the burden on grantees to meet often redundant 
mandates from multiple individual grant programs. As the subcommittee 
is aware, the Redundancy Elimination and Enhanced Performance for 
Preparedness Grants Act identified the elimination of duplicative 
mandates as a priority.
    Ultimately, creating this program would strengthen our ability to 
respond to evolving threats across the United States.
            Opportunity, Growth, and Security Initiative
    The Nation is already experiencing impact from climate change, and 
there is more to come. The budget strengthens America's preparedness 
for and resilience to the effects of climate change by including base 
funding for investments specifically for identifying and analyzing 
critical infrastructure vulnerabilities, as well as funds for grants to 
support research and State and local level resilience planning. In 
addition to these base funding investments, the budget includes over $1 
billion in a Climate Resilience Fund within the President's 
Opportunity, Growth, and Security Initiative to more fully prepare the 
Nation for existing and future threats from climate change. The 
investments supported by the Fund will arm us with a greater 
understanding of the impacts of climate change, provide tools and 
information to support community planning that accounts for the effects 
of climate change, and help reduce the risk to our communities, 
infrastructure, and natural resources in the face of climate change and 
extreme weather events. As part of the administration's OGSI, the FEMA 
budget includes a separate, fully-paid-for request to support further 
preparedness and pre-disaster planning and execution.
    The OGSI, which will be split evenly between defense and non-
defense funding, shows how additional discretionary investments in 2015 
can spur economic progress, promote opportunity, and strengthen 
National security.
    The budget will include $400 million for the Pre-Disaster 
Mitigation program in the Opportunity, Growth, and Security Initiative. 
This, combined with the $150 million in base funding for National Flood 
Insurance Program mitigation grants, represent an increase of $425 
million over the 2014 spending level. These programs provide grants for 
eligible mitigation planning and projects that reduce disaster losses 
and protect life and property from future disaster damages. This 
includes support for adaptation planning and pilot projects for cities 
and communities through hazard mitigation assistance, building on 
administration efforts to implement the National Mitigation Framework. 
For mitigation funding provided through the Flood Insurance Program, 
this can include planning grants to prepare flood mitigation plans; 
cost-effective project grants to reduce flood losses, structure 
elevation, retro-fitting of existing buildings.
Strategic Priority Four: Enable Disaster Risk Reduction Nationally
    As part of FEMA's effort and its stated strategic priority to 
enable disaster risk reduction Nationally, FEMA will leverage its 
partnerships, programs, and risk information and tools to catalyze 
whole community efforts advancing risk-based decision making across the 
Nation. This effort will help to build community resilience through 
ensuring a common risk picture, better targeting of resources, and a 
joint/collaborative National effort to build the capabilities that will 
best address the identified/targeted risk areas.
    Focus areas will include:
  <bullet> Enabling greater risk-informed decision-making by improving 
        the quality, accessibility, and use of risk information. For 
        example: Through the continued modernization of flood maps and 
        the continued implementation of the THIRA process.
  <bullet> Building the appropriate preparedness capabilities to 
        address the identified risks through continued implementation 
        of the National Preparedness System. For example: Through the 
        implementation of the National Mitigation Framework and 
        National Disaster Recovery Framework, long-term disaster 
        recovery planning, training and education, core capability 
        development, and sharing of lessons learned.
  <bullet> Leading greater Federal interagency collaboration around 
        risk reduction and resilience, building on earlier efforts such 
        as establishment of the Mitigation Framework Leadership Group 
        and implementing a consistent Federal flood risk standard for 
        Federal funds in Hurricane Sandy rebuilding. For example: 
        Through the development and adoption of a Federal Flood Risk 
        Reduction Standard under the President's Climate Action Plan of 
        2013.
    FEMA will also strive to reduce the risk associated with flood 
events via the Flood Mitigation Assistance Program. As a result of the 
unification of the Flood Mitigation Assistance, Repetitive Flood Claims 
and Severe Repetitive Loss grant programs under the Flood Mitigation 
Assistance Program, FEMA has been a more efficient delivery of flood-
related grants to States, local, and Tribal communities, which has 
reduced future claims to NFIP. These grants provide funding to States, 
Federally-recognized Tribal governments, and communities for the 
reduction and elimination of the long-term risk flood damage poses. The 
grant also provides funds on an annual basis so that measures can be 
taken to reduce or eliminate risk of flood damage to buildings insured 
under the NFIP. These measures include the acquisition and demolition 
of flood-prone structures, elevation of homes above expected flood 
levels and construction of minor drainage projects to reduce the impact 
of storms.
    FEMA requests $150 million in fiscal year 2015, an increase in $50 
million over the fiscal year 2014 request, for this activity so that 
important loss reduction measures are completed.
Strategic Priority Five: Achieve Business and Management Excellence
    As part of FEMA's strategic priority to achieve business and 
management excellence, the agency is undertaking several initiatives. 
Among them: Continuing to dramatically shrink its facilities footprint 
to save funds and apply taxpayer money wisely to higher priorities, 
leading the Federal Government in developing collaborative workplaces 
and improving security posture and resiliency, executing training 
curriculum and programs to ensure employee readiness to timely execute 
their responsibilities, and reviewing and maximizing the use of all 
technology spending for mission execution.
                               conclusion
    The fiscal year 2015 President's budget provides the level of 
resources required to support the agency's ability to fulfill its 
emergency management mission. The budget lays out a plan that 
effectively manages, efficiently uses and maximizes the impact of our 
resources, while ensuring the Nation's resilience to disasters. FEMA's 
proposed budget continues to streamline current business processes and 
harnesses the use of innovative technologies. The budget also shows a 
commitment to learning from each disaster and evolving our plans and 
processes to better serve survivors--our ultimate stakeholders--and 
meet the needs of the whole community.
    We look forward to continuing to work with the subcommittee to 
ensure that our Nation is even more prepared and resilient moving 
forward.

    Mrs. Brooks. Thank you, Administrator Fugate, for your 
testimony.
    I now recognize myself for 5 minutes for questions.
    Keeping along the lines of what you have just talked about 
with respect to the National Preparedness Grant Program and the 
changes that you are proposing, I think one of the things that 
we remain concerned about and I am not certain that it is clear 
from what has been submitted thus far and has to do with the 
funding of the UASI jurisdictions. So the proposal and the 
legislative text are still not clear enough for us to 
understand as to how high-risk areas will be funded.
    Obviously, we do believe in risk-based funding and so, 
appreciate that the same amounts of funding, you know, 
shouldn't be distributed equally across the country, but that 
there are high-risk areas.
    So if authorized, would funding under the NPGP be set aside 
for UASIs with applications submitted through the States as is 
the current practice? Or will UASIs apply to the States in 
which they are located and the States determine the amount of 
funding their UASIs will receive?
    Mr. Fugate. It would be the urban areas applying to the 
State with the criteria that we built into the authorizing 
language that rather than setting aside specific funding would 
make those as part of the requirements the State would have to 
fund.
    So in a term, what we would do is still identify in their 
threat hazard analysis those urban areas and the types of 
activities and capabilities they would need to build in that 
area.
    But it would give the State the ability to make those final 
allocations. Part of this that what we wanted to go to was 
building this more as a collaborative so that we have both the 
local jurisdictions and the State working together to come up 
with these final allocations and recommendations using criteria 
to drive that decision.
    Mrs. Brooks. So I guess I am just a little bit confused as 
to with respect to the communities, and you have expanded it 
once again as I stated in my opening remarks to 39 communities. 
So are you saying that those are the 39 communities that will 
be eligible to apply to their States and others would not be?
    Mr. Fugate. No, it would be based upon, and in the case of 
some of the expansions that we looked at this year for the 
Secretary, last year, if you remember, we were capped at a hard 
25.
    That cap was lifted this year. Well, one of those concerns 
is some of the proximity that some communities either because 
of large terrorist venues or proximity to strategic military 
installations that didn't always factor into some of the other 
risks, but were significant enough to look at.
    So when you take my home State of Florida, we have not 
identified every location that has a military presence. But if 
you look at Florida, between Tyndall Air Force Base, where we 
currently are, you know, getting the F-35 up and running, you 
have got Mayport, Jackson AS, where P-8 squadrons are at, none 
of these are necessarily on the urban security list.
    But these would be areas the State could look at going if 
there are concerns about the threats, they could look at that, 
versus just looking at certain urban areas that were only 
designated.
    Mrs. Brooks. Moving onto another issue, the NPGP proposal 
seeks to change the focus of grants from terrorism to all 
hazards. Now, these programs were, in large part established in 
response to the 9/11 attacks, as the Ranking Member has 
eloquently pointed out. You know, I personally don't believe 
the terrorist threats to the United States has diminished 
significantly since 9/11.
    There are a lot of incredible dangers around the world and 
a lot of terrorist threats that we still face. So what is the 
rationale for changing the focus of these grants to all hazards 
when we know we have so many natural disasters? So how is it 
that we will be able to keep our focus on terrorism threats?
    Mr. Fugate. Well, the prevention piece I don't think 
changes as much with the change in language. In the Homeland 
Security grants it always allowed for all hazard base, although 
terrorism is the focus. What we want to focus on are 
consequences of events.
    The need for search-and-rescue teams in the recent mudslide 
that is occurring right now in Washington State or the search-
and-rescue teams that were deployed in the State of New Jersey 
were built with Homeland Security funds.
    It is more of a recognition that we need to build 
capability against potential consequences, not just for 
specific--one threat, but there are elements within that that 
are very germane to terrorism such as fusion centers and other 
activities.
    Again, this is where we think that prioritizing that in the 
grant guidance ensures that funding, but it allows States to 
look at the consequences of the types of events they face. 
Mississippi got slammed with tornadoes several years ago. Many 
communities were literally, the proverbial term, wiped off the 
face of the map. It was the ability to deploy resources built 
with Homeland Security grants that allowed that initial 
response to establish public safety--again, the consequences of 
the event.
    So it isn't just about the hazards. It is really about 
looking at the various consequences and that these are 
applicable across a variety of events. Just like the mass 
casualty in Boston--could have been an industrial accident 
producing a similar number of burn and traumatized patients. 
The capability respond to that in the aftermath is the 
consequence piece of it.
    It doesn't detract them from the prevention piece.
    Mrs. Brooks. Thank you. I see that my time is up. I now 
turn to Ranking Member Payne for 5 minutes of questions.
    Mr. Payne. Thank you, Madam Chairwoman.
    Director Fugate, we hear what you are saying. But you know, 
I have repeatedly been told that the goals of your grant 
consolidation proposal are to improve oversight and enforce a 
better collaboration. Now, I am not convinced that achievement 
of these important goals warrants, you know, the fundamental 
changing of the program.
    As the Chairwoman read into the record, stakeholders 
including the National League of Cities, the National 
Association of Counties and International Association of 
Firefighters, to name a few, have come up with a list of 
principles that, you know, in my view, are very constructive 
guideposts for any grant reform effort.
    There are transparency, local involvement, flexibility and 
accountability, local funding, terrorism prevention, and 
incentives for regionalization.
    Are you open to working with this committee and the 
stakeholders, you know, on the ways that the Homeland grant 
program could be refined to not only meet your goals but also 
to adhere to the principles outlined by the stakeholder groups?
    Mr. Fugate. Absolutely. Again, we are basing this upon 
looking at some of the large-scale threats this country faces. 
I always like to go, what is the worst thing that--what is our 
worst day in America?
    If somehow an improvised nuclear device is ever detonated 
in any city, it will require the full capabilities, not only of 
the local jurisdictions and the State of impact, not only the 
Federal Government, but the non-impacted jurisdictions.
    I think we have to look at this, again, what are the 
National gaps in capabilities based upon the most significant 
threats we face, while recognizing each jurisdiction has unique 
responsibilities. But I also have to go back to, when we bypass 
Governors, we set up the imbalance of dealing directly through 
jurisdictions, not involving the Governors in that process.
    But I am willing to work to reach all of the concerns as 
best we can in building National capability.
    Mr. Payne. Well, Director, I know there have been some 
concerns about people being parochial, but you know, you have 
pointed out your experiences in Florida. So let me point out my 
experiences in New Jersey.
    We suffered through Hurricane Sandy. There were still 
issues about how those funds that we allocated are being 
handled by our Governor, and whether he is using them, you 
know, sometimes in political ways.
    So in New Jersey, we have a concern with that because we 
have seen--we still have communities that are still suffering 
after a year later, after, you know, Congress has put those 
funds out there.
    Now I know a lot of it doesn't fall under you. But that is 
our concern. We are concerned about giving that power to 
certain people when we have seen the funds have not necessarily 
gotten where they should be or used in the proper manner.
    Mr. Fugate. I understand. I also understand that the 
Constitution, however, was not built around the individuals. It 
is built around the entire system. That is what I am proposing, 
is looking at the Constitutional structure, division of Federal 
and State responsibilities that Governors have under State 
constitutions.
    Mr. Payne. Well, then why was this grant never set up the 
way it is?
    Mr. Fugate. The grants originally came to the States. 
Jurisdictions were concerned that they weren't getting the 
recognition and they have--funding directly. They went to 
Congress. Congress began funding and created the urban security 
areas.
    The urban security areas came after the original Homeland 
Security funding. It was not the origination of that. It came 
about jurisdictions coming to you, looking to get funding more 
directly and bypassing the States. So they were given that 
capability.
    Mr. Payne. Okay, all right, well, I see my time is up. I 
yield back.
    Mrs. Brooks. The Chairwoman now recognizes the Vice Chair 
of the committee, the gentleman from Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Madam Chairwoman.
    Administrator Fugate, thank you for being here today. I am 
going to just change the subject a little bit. A topic that is 
on my mind and in the mind of many communities around the 
Nation is flood insurance relief.
    I know you were in front of a Senate panel, I believe, last 
year. We were discussing the affordability issues with Biggert-
Waters 2012. You called on Congress to help you with that.
    We responded and we did in a bipartisan and bicameral way. 
Just this past Friday, the President signed into law the 
Homeowner Flood Insurance Affordability Act. So the key word is 
affordability. We think we have given that to you.
    We all know Biggert-Waters had a lot of unintended 
consequences. Our No. 1 priority for many Members of Congress 
from the coastal areas has been to make sure that flood 
insurance remains available and affordable to the homeowners 
that need it.
    The law that was just recently signed by the President, it 
was paid for. It puts NFIP, continues to keep NFIP on the path 
to solvency. But it does so with a compassionate rate 
management, which is extremely important. So let me move 
quickly. Now, I know this law was just signed this past Friday. 
But has FEMA begun to plan for the implementation of this law?
    Mr. Fugate. Yes, sir, we were looking at the language prior 
to the Senate actually taking it up. We are looking at the time 
frames that you gave us to do refunds. Also, how to now change 
the rate increases. I believe there is certain language in 
there--shall not exceed 18 percent. So we are going back in 
that.
    You have also have put in a fee structure. So that fee 
structure will have to now go back to Write Your Own so that we 
set a point at which they will begin collecting that. That 
collection will be--once that data is set, it will not be 
collected immediately on all policy. It would be collected, I 
believe, when they renew.
    So once we set that debt with Write Your Owns, that date, 
we would see a year before everybody has paid a fee as they are 
renewing their policies. But we have already begun looking at 
this and are currently working on the language.
    Again, as you can understand, we have to go look at this as 
implementation through Write Your Owns, with our two biggest 
priorities right now--the recovery of previously-paid fees and 
their insurance claims--or not insurance claims, but the 
insurance payments that will be retroactively reimbursed and 
then setting up for the Write Your Owns, the implementation 
rules and the time frames for the new increases and for the fee 
structure.
    Mr. Palazzo. Will you need specific funding to implement 
this law as you did in Biggert-Waters?
    Mr. Fugate. Again, we are still looking at what the cost 
will be and whether or not it will be within that program with 
those additional fee and what that would cost. But we are still 
running the analysis of what additional cost there would be.
    One of our challenges is because the Write Your Owns 
receive a fee as a percentage. When we do the refunds, we still 
haven't addressed the percentage of fees they collected as far 
as their having to pay any of that back, what that means to the 
Write Your Owns, or whether we have to absorb that out of the 
program.
    Mr. Palazzo. Now, Congress added a provision also to 
provide immediate rate relief to the homebuyers and eliminate 
the home sales trigger. Under the assumption provision, buyers 
of property will be allowed to assume the policies of and the 
current rates of sellers.
    This was to prevent homebuyers from seeing drastic flood 
insurance premium increases while FEMA works on implementing 
the rest of the new law.
    Now, we understand, we hope that moves extremely swiftly 
because it's definitely thrown a wet blanket on real estate 
markets across the Nation, and caused homeowners a lot of 
grief.
    Again, the law was just signed on Friday. Do you know when 
guidance is going to be sent out to the Write Your Own?
    Mr. Fugate. Congressman, I would have to get back to you. 
Part of this will be--since this will essentially be 
grandfathering a preferred risk to a new homebuyer, we have to 
make sure that the Write Your Owns have clear directions.
    So when that transaction takes place, and this will also be 
for the mortgage industry that where you have the requirement 
to have flood insurance, that they are getting the preferred 
rate that was originally with the original seller.
    So we will have to basically do both the--what was the 
current rate and make sure the Write Your Owns and the 
administration of that have that transferred to a new buyer. We 
still have some questions we are working out on what is the 
best way to do that and the training and time frames to get 
that implemented.
    But we will report back to you on that.
    Mr. Palazzo. Thank you. I just want to continue to urge you 
to act swiftly on this. You touched on the refunds real quick. 
In the mean time, while all this is being implemented and 
worked out, is there any advice that you can give us to--that 
we can provide our constituents so they can begin getting 
answers to their questions?
    Mr. Fugate. I think probably, it is important to educate 
them that these new grandfather rates are transferable because 
it is going to take some time to get that out to every agent, 
and get that into the system. So I think you can help people 
advocate that the law has changed.
    If they are still not getting what they need, work back 
with us because we may have to handle some of the most 
immediate ones, literally hand-walk it through the process 
until the system is fully up and running with the new changes.
    Mr. Palazzo. All right, my time has expired. I yield back. 
Thank you.
    Mrs. Brooks. Thank you.
    At this time, I would recognize gentleman from New York, 
Mr. Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Administrator, the Urban Area Security Initiative program 
originally started with 64 communities, was then reduced to 25, 
and then bumped back up to 39. The criteria that was built into 
the legislation, which was intended to determine eligibility, 
is something the community doesn't desire.
    They don't want to be put into the program. They are put 
into the program based on an independent analysis that says you 
have high-impact targets. The Buffalo-Niagara region that I 
represent has the second-busiest Northern Border crossing 
between the United States and Canada.
    It has the Niagara power project that produces the largest 
allotment of electricity in all of New York State. There is 
Niagara Falls that is a destination of tens of millions of 
people every year from every country in the world. It has 
Toronto, an international city.
    It is home to the Lackawanna Six that were in an al-Qaeda 
training camp in Afghanistan and several other justifications 
for including the Buffalo-Niagara region in the UASI program. 
The last edition of Inspire magazine, which is a magazine that 
is distributed to Jihadists throughout the world to encourage 
home-grown terrorism, not only in the United States but 
throughout the world, that magazine identified the Buffalo-
Niagara region as being vulnerable to terrorist attack.
    That is not a distinction that we are proud of. I would 
think that Homeland Security would be very concerned about that 
specific reference because terrorism experts say regarding 
Inspire magazine as a threat in and of itself, and the magazine 
is intended to promote and encourage aspiring Jihadists in the 
United States and the world.
    What is the Department of Homeland Security response for 
excluding a community that never asked to be included in this 
program in the first place and then was excluded and now, this 
new information, which is very, very alarming for anybody that 
lives in that community and should be alarming for everybody in 
this administration that is responsible for that program?
    Mr. Fugate. Again, we could fund jurisdiction by 
jurisdiction. But the capabilities respond as a Nation also 
have to be looked at. There are other jurisdictions who also 
have compelling reasons to think or justify them being on the 
list.
    But it is a finite capability. It is prioritized. The 
Secretary reviews that list and makes the decisions based upon 
all threats, not just populations, not just critical 
infrastructure, not just threat intelligence, but looks at 
everything. So there is no one single factor that goes into 
that.
    It is based upon an overall look at the Nation and those 
communities. So not being on that list does not mean we don't 
agree. But there are finite resources. The Secretary would have 
to prioritize which of those cities made that list.
    Because there was not a limitation of 25, did expand the 
list.
    Mr. Higgins. Claiming back my time. The new information 
that one region in the entire Nation is identified by a 
magazine that is intended to inspire Jihadist activity--violent 
Jihad against communities, attacks on the homeland, attacks on 
communities that have already been deemed eligible--again, the 
Buffalo-Niagara region didn't request to become part of the 
program.
    It was brought into the program based on independent 
criteria that was established by Homeland Security officials.
    Now, this new information is a Homeland Security official 
who is--who is put in place, takes on a responsibility to 
protect the homeland, does the reference of one community in 
this Nation, in Inspire magazine, that originates out of al-
Qaeda in the Arabian Peninsula, that promotes violent Jihad 
against the homeland specific communities--does this new 
information cause concern on your part as a Homeland Security 
official for this Nation?
    Mr. Fugate. I am concerned about a lot of threats. I am 
concerned about terrorism.
    Mr. Higgins. You are not answering the question.
    Mr. Fugate. The threats we look at have to be looked at----
    Mr. Higgins. You run the program, I represent a community. 
The community that I represent was identified in Inspire 
magazine, which every terrorism expert recognizes is a threat 
in and of itself. You are telling me about, you know, wider 
jurisdiction.
    What do I say to my constituency, sir?
    Mr. Fugate. That we fund the Nation. The State receives 
additional funds. We fund urban areas. We look at these threats 
across the Nation. It is not to say that a jurisdiction does 
not have a mention or may be specifically identified.
    But it does say that the funding decisions are based upon 
States, Nation, threats-based. We try to look at all the 
information to make decisions about where we are going to fund 
and what we can fund.
    Mr. Higgins. Will this new information play into a 
reevaluation of communities that are included or not?
    Mr. Fugate. It potentially can depending upon how the 
information or intelligence and analysis is looking at this, 
based upon other threat information that isn't public and looks 
at the intelligence community to verify what is in this. We 
have seen mismatches between what Inspire will state and what 
intelligence services will find out going on.
    So we try to look at not only the publicly-available 
information, but the match that it gets the threat streams to 
make sure we are addressing these threats.
    Mr. Higgins. I yield.
    Mrs. Brooks. Thank you. Thank you.
    The Chairwoman now recognizes the gentleman from South 
Carolina for 5 minutes, Mr. Sanford.
    Mr. Sanford. Thank you, Madam Chairwoman.
    Let me just say up front that I am a big fan, both in my 
previous role in Government services and frankly, as a 
reservist with the Air Force, grown to tremendously value your 
work over the years. Legitimately, there will always be 
differences of opinion. It is what makes the world go round. 
But I would say, in as much as you can keep a bias that 
maintains this larger notion of Constitutionally-enshrined 
Federalism, I think it to be very, very important.
    One of the things that I saw in my past role was that there 
are a whole host of different perspectives based on geography. 
But the idea of having an overlay at the State level so that 
one can look at competing demands and competing needs I think 
essential to maximizing our effectiveness both from the 
standpoint of security and from the standpoint of watching out 
for the taxpayer. I guess I have two quick questions.
    One is on flood insurance, going back to my colleague's 
questions, you know, I think that there was a real skepticism 
back home on the coast because if you are a conservative, you 
are naturally skeptical of where Government money might be 
coming from.
    So the idea of saying through the ``Jerry McGuire'' 
fashion, you know, show me the money, over here, it is give me 
the money and then we will show you exactly how the flood map 
is going to fall out, exactly where the assumptions are because 
as you know, there is a big world of difference in ultimately 
damage, and by extension, you know, charges at a premium level 
on whether or not storms are going to hit at, you know, high 
tide or low tide, how many named storms, how many landfalls, go 
down all the different variables.
    Is there a place or when will there be a place by which 
folks back home, whether on the Gulf Coast or the East Coast, 
might be able to look at some of those assumptions and say, 
well, I agree with them or I disagree with them, and then 
therefore, I can, you know, sort of come further up to speed 
with what I like or I don't like with regard to flood 
insurance?
    That is one--well, let's hop into that one. We will come 
back to second one.
    Mr. Fugate. Well, I think there is a hyper-awareness 
because of the increases proposed under Biggert-Waters. But 
there is no such thing as a FEMA flood map. These are 
community-based maps. FEMA provides the funding, the criteria.
    But ultimately, the local governments are part of that 
process. They adopt those maps by ordinance. They have to 
enforce building codes based upon those maps. So I think there 
is a hyper-awareness.
    We need to make sure that the public is aware because when 
these maps are originally proposed, that is when public comment 
can come in. We will use the best available data. So 
oftentimes, there is a better day to finally get results.
    Mr. Sanford. Yes, if I might, understood, but at least the 
way the folks were telling what they felt back home to me, it 
was that the cart was before the horse because that flood map 
process had not been complete. They weren't quite sure from an 
actuarial standpoint where a lot of the assumptions were.
    We are not--where will they be able to get a snapshot on 
that?
    Mr. Fugate. Well, the actuarial basis was actually looking 
at if we knew the base flood elevation. We knew that the risk 
was increasing almost exponentially for every 4 feet you drop 
down.
    An example, we insure a maximum of $350,000 contents and 
structure. If you are at base flood elevation, that is about 
$3,200 policy. If you are a foot above it, it is a $600 policy. 
If you are 4 feet below, it is a $7,200 policy.
    You drop down 8 feet, it doubles and it doubles again. So 
particularly in coastal Carolina, as we saw with Hurricane 
Hugo, we can have storm surge inland of 25 to 30 feet. Now, 
that is not what the flood maps are based on. But that is what 
the risk is.
    So you could see, if you have got homes that are routinely 
up on stilts that are sitting 12 to 13, 15 feet in the air, you 
have got a pretty serious problem. So if you are slab on grade, 
and you haven't been elevated, you could expect those flood 
insurance premiums to be extremely high. That is part of the 
reason----
    Mr. Sanford. Is there a public place where folks might best 
look for that information?
    Mr. Fugate. We were putting that information at fema.gov 
and trying to put information about how the increases were 
going to affect. Now, that is now changed with the changed law. 
So we will be doing the calculations.
    But again, if you are at base flood elevation, you 
basically are getting a neutral rate. If you are 1 foot above, 
you are getting the preferred rates. So if you are building to 
code, you are good. The question has always been, when you 
update the maps, what happens if you built with the previous 
codes and now, new data says that is not high enough?
    Now, you get slapped with these increases. But you did what 
you thought you were supposed to do the right time. So again, I 
appreciate Congress trying to work this affordability issue. 
This was a concern we had previously. But it is reflected----
    Mr. Sanford. I see I have got 26 seconds or 25 now. When 
will that affordability study be coming out?
    Mr. Fugate. Based upon the guidance we have got, it is 
going to be a couple-year process working with the researchers 
to build that data and look at affordability and look at what 
those impacts are.
    Mr. Sanford. I will come back with my other question later.
    Mrs. Brooks. The Chairwoman now recognizes gentlelady from 
New York, Ms. Clarke, for 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chairwoman and to 
our Ranking Member Payne.
    I thank you Honorable Fugate for being here this morning. I 
have a question with respect to the Hurricane Sandy after-
report. Clearly, Hurricane Sandy, which has devastated the East 
Coast, we are still trying to recover, we have seen FEMA really 
respond well.
    You have improved since Hurricane Katrina. But we recognize 
that there was an after-report and that there is room for 
improvement. Could you give us a sense of what steps FEMA has 
taken to address the corrective actions identified in the Sandy 
after-action report of July 2013?
    Mr. Fugate. Well, a key one, and this is true across a lot 
of different disasters, is to make sure we are providing 
consistent information to the grantee, the States, and the sub-
grantees about the requirement to follow Federal purchasing 
guidelines and contracting requirements.
    This has been a systemic issue across all disasters where 
when that isn't clear, we oftentimes give bad information--or 
have given bad information to follow your State and local 
purchasing guidelines or contracting. Then the IT finds you 
weren't compliant with Federal.
    So we are trying to make sure that on the front end, we are 
providing good information. Another example was we did some 
pilot programs. You gave us a lot more flexibility with the 
Sandy Recovery Improvement Act in addition to the supplemental 
funds.
    So we are in the process of piloting several things that we 
hope will speed up the process, including doing an alternative 
project or instead of having to wait until projects are 
finished and only reimbursed actual cost, we can do an estimate 
on the front end and fully fund a project using authority you 
gave us. There are some very large projects, both in New York 
and New Jersey that are taking advantage of that.
    So as we learned those lessons, hopefully we can speed up 
recovery process while maintaining responsibility to the 
taxpayers.
    Ms. Clarke. I hope that you will also give guidance that in 
that special pilot, where subcontracting is concerned, that 
that same practice should be applied?
    Mr. Fugate. This was one of the key findings from the IG 
was that there are many requirements in Federal procurement and 
contracting that would apply to subcontractors as well as to 
prime, and that FEMA had not done a good job of enforcing that.
    So what we are doing is just putting people on the front 
end so that when grantees are working these projects and sub-
grantees, we make sure that they understand all of the Federal 
procurement law that is applicable, that if you are taking 
Federal dollars, it is no longer just State or local 
procurement law. You have to adhere to Federal procurement law 
which would address those issues.
    Ms. Clarke. Outstanding. You spoke about grants. I want to 
turn your attention around the FEMA National Preparedness Grant 
Proposal. Can you provide specific examples of changes FEMA 
made to address concerns raised by stakeholders with this 
consolidation?
    Mr. Fugate. Well, there are several. But we can provide 
more information. One of the very specifics is because we 
wanted to look at the consolidation, the 9/11 Act refers to 
specific Government entities.
    That would potentially leave out certain port and transit 
groups that don't fall into the definition.
    Ms. Clarke. Exactly.
    Mr. Fugate. So we have included in the authorizing language 
to expand that definition. That is the only reason why we are 
putting the language in there. We are not trying to open the 
universe to anybody.
    But there were some very specific groups that had 
previously received Homeland Security fundings that by 
consolidating this, would be limited, unless we have the 
authorizing language. So we cannot get a consolidated grant by 
appropriations without authorization or we would potentially 
have groups left out.
    Ms. Clarke. Okay, very well. Then just in closing, I have a 
question about NPGP. The draft authorizing legislation included 
with the budget request that NPGP would build a sustained core 
capabilities identified in the National Preparedness Goal.
    But unfortunately, fire-fighting will be a key element of 
any response to a terrorist attack. DHS does not identify fire-
fighting as one of its core capabilities. Would the 
administration's NPGP proposal eliminate funding for fire 
departments that historically have received UASI and SHSGP 
funds?
    Mr. Fugate. No, ma'am. In fact, two stand-alone grants that 
weren't tied to specifically 9/11, the SAFER and the AFG grants 
specifically for fire departments, for staffing and equipment 
are not touched. Again, this is not for the primary fire-
fighting.
    This is the enhancement of fire department, particularly 
things like search-and-rescue and Hazmat teams, which are 
oftentimes fire-department-based, to focus on those things that 
are not the day-to-day responsibilities or operations of a fire 
department. So this is really the Homeland Security grants 
would not preclude fire-fighting.
    It doesn't speak to the day-to-day response as to your 
local tax base. It speaks to the enhancement of those teams for 
the Homeland Security threats.
    Ms. Clarke. So would you--would they still be--would fire-
fighting still be eligible for UASI fund?
    Mr. Fugate. Yes.
    Ms. Clarke. Okay, very well. Thank you.
    I yield back, Madam Chairwoman.
    Mrs. Brooks. The Chairwoman now recognizes the Ranking 
Member, Mr. Payne.
    Mr. Payne. Madam Chairwoman, I ask unanimous consent that 
the gentlewoman from Texas, Ms. Jackson Lee, be permitted to 
participate in today's hearing.
    Mrs. Brooks. Without objection, so ordered.
    At this time, I would turn it over to the gentlelady from 
Texas, Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Thank you, Madam Chairwoman.
    Thank you, Ranking Member, for your courtesies and to my 
colleagues as well, thank you for your courtesies.
    Mr. Fugate, it is good to see you again. Thank you very 
much. I have a series of questions. This is a very important 
subcommittee. But coming from Texas, we have seen you often or 
we have seen FEMA often.
    We certainly thank them for their service. I want to start 
out with your mission which is to support our citizens and 
first responders as a Nation, work together to build, sustain, 
improve our capabilities. So my questions will follow along 
those lines.
    Presently, Houston area is suffering a non-noticed 
devastating oil spill. I don't know whether or not, though we 
have requested that a request for a disaster status has been, 
and I would ask you whether you have received any inquiries 
from the State of Texas regarding the oil spill that is in the 
Galveston, Houston area.
    Mr. Fugate. No, Congresswoman, I am aware of it. I know 
that the Coast Guard and the EPA had to lead for the Federal 
response to the clean-up. I am not aware. We will have Region 6 
reach out to NMCI I have not heard anything from the State of 
Texas about a declaration request.
    But I do know that the Coast Guard and the EPA are 
coordinating the response to the clean-up.
    Ms. Jackson Lee. Yes, would you--as I left, it was creeping 
into local communities. So I would ask if Region 6 could 
contact my office as well----
    Mr. Fugate. Yes, ma'am.
    Ms. Jackson Lee [continuing]. Regarding this. To that 
point, I notice that--I would assume that the oil spill would 
be under the no-notice events.
    Mr. Fugate. Yes, ma'am.
    Ms. Jackson Lee. There is notice that it is $1 billion. Did 
you use all of your no-notice funding for last fiscal year? 
Does it carry-over? Or is this going to be enough?
    Mr. Fugate [continuing]. Usually with oil spills, there is 
responsible parties. So it would depend upon if there is 
uninsured or uncovered losses. That would have to be 
determined. But because you have fully funded the Disaster 
Relief Fund, we are still able to maintain response to no-
notice events as well as the on-going previous disasters.
    Ms. Jackson Lee. You feel in good--you are in good shape. 
Is that what you are saying? I am just----
    Mr. Fugate. Yes, Congresswoman. As you know previously, 
there was always a struggle to have the money. We many times 
would have to stop work----
    Ms. Jackson Lee. Right.
    Mr. Fugate [continuing]. In previous disasters. With the 
budget stabilization agreement in fully funding the Disaster 
Relief Fund, Congress has enabled FEMA to respond to our 
existing previous disasters as well as maintaining the 
capability for no-notice catastrophic disaster response.
    Ms. Jackson Lee. Thanks. I just want to continue to monitor 
this issue of the oil spill. I know that there is the self-
reimbursement or reimbursement by those who are responsible. 
But I am also looking at the immediacy of the response.
    So that is why I would would like to be briefed.
    Let me--let me publicly, Madam Chairwoman and Ranking 
Member, just thank the U.S. Coast Guard as they have done a 
stupendous job. I know this is not this hearing, I am certainly 
advocating for their full funding.
    Quickly to the flood insurance, the biggest reform, as you 
well know--legislation was just passed. In times past, I have 
had the FEMA director in my town reworking the flood maps 
because they literally destroyed whole communities in terms of 
the value of their homes.
    So are you all, including now, immediately the sort-of--I 
know it was, it was dealing with the insurance aspect of it. 
But does that legislation--the reform that was just passed, 
impact how you are doing your flood maps?
    Mr. Fugate. There are some key provisions both in Biggert-
Waters and then in this that requires us to have a technical 
advisory committee and provide more validation of the 
methodology. So as we are implementing this and going through 
that, we will be providing reports back on the time frames.
    But part of this was to have outside validation of the 
mapping criteria and also more clarity in the appeal process 
for communities to use when they are challenging maps.
    Ms. Jackson Lee. Can we, as Members of Congress, reach out 
when our communities, you know, en bloc and in large numbers, 
so that we can make sure, because when I had this issue in my 
district, we did have the FEMA director. He was frankly very 
helpful in saying this is not the interpretation.
    So do we still have that latitude to be able to do so?
    Mr. Fugate. Absolutely, either through our regional staff 
or through headquarters staff it is always available to you.
    Ms. Jackson Lee. I want to move to--just to make mention of 
the tragedy in Washington State and hope that you will be 
heading there. Others, I know that obviously, you rely upon 
your region. But the disaster looks like it is growing. Again, 
I want to thank the first responders and join with my 
colleagues from Washington State.
    Let me--let me just add my other question in, so then you 
can respond to both of them. My colleague from New York asked 
about firefighters. We are presently having a--just I think 
devastating brownouts in the State of Texas. I think you come 
from a firefighter community in terms of not having fire 
stations' equipment and personnel out on the streets.
    Could we enhance our homeland security response because our 
homeland security responsibilities are being diminished? We 
have got the energy industry there. So what kind of grants 
could we utilize that would legally fit within utilizing more 
firefighters in the needs that we have in our community?
    Mr. Fugate. I will have staff brief you on the programs. 
But you have two that currently are funded by Congress--the AFG 
and the SAFER grants, one which refers to funding personnel 
during these types of crisis and the other is about equipment. 
But we can provide that.
    As far as Washington State, we have been--region has been 
engaged. The Governor made a verbal request last night. The 
President granted it. We have some incident support teams on-
site. But it is also a legacy of the Homeland Security grants.
    Many of the resources being deployed are actually 
Washington State resources built with the Homeland Security 
grants and other programs.
    Ms. Jackson Lee. But you are standing ready for----
    Mr. Fugate. Yes.
    Ms. Jackson Lee [continuing]. Anything that they need in as 
much as I understand that there is still any search-and-rescue 
mode, and that the numbers either keep going up or down.
    Mr. Fugate. It is a very dangerous situation. The best way 
to describe the mudslide is it is like quicksand because it is 
not stable. You can't walk into it. It is almost an impossible 
task to get to some of the areas until it becomes more 
stabilized.
    So there are many responders standing by. But in some 
cases, they can't get into some of the hardest-hit areas 
because it is too unstable and too dangerous.
    Ms. Jackson Lee. Well, let me thank you very much. These 
are on-going issues to both of you. Thank you so very much for 
allowing me this time. With that, I yield back. Thank you.
    Mrs. Brooks. Thank you so much for your reminder to all of 
us about the dangers that not only Coast Guard and response but 
this incredible dangerous situation that the mudslides, our 
colleagues from Washington brought that to the attention of the 
floor yesterday. Several lives have been lost.
    So we are, you know, praying for the safety of the first 
responders. So I want to thank you for that.
    We are beginning our second round of questioning. I am 
going to defer my 5 minutes of questioning and turn it over to 
the Vice Chair, the gentleman from Mississippi, for a second 
round of questioning for 5 minutes.
    Mr. Palazzo. Thank you again, Madam Chairwoman.
    Administrator, as a Florida native, you know how important 
our community piers are to locals and to tourists who visit our 
areas. So with that, there are several cities and counties 
along Mississippi's Gulf Coast that were devastated by 
Hurricane Katrina in 2006. Many of our piers along the 
Mississippi Gulf Coast were destroyed and had to be repaired.
    For example, Harrison County repaired its piers following 
post-Katrina and post-Gustaf, approval processes and repair 
guidelines. This included waiting on environmental impact 
studies before constructing the pier. In August 2012, Hurricane 
Isaac hit and destroyed many of the piers again.
    FEMA declared the coast a disaster area. Since that time, 
Harrison County, the city of Gulfport and the city of Long 
Beach have petitioned for disaster relief funds to rebuild and 
repair piers damaged by Hurricane Isaac.
    Discouragingly, FEMA has denied their request because it 
has insisted on putting these municipalities through additional 
environmental impact studies, even though these same piers were 
subjected to environmental impact studies completed only a few 
years earlier.
    The work involves repairs on existing structures. We are 
not talking about completely rebuilding the piers or the 
structures. To many in South Mississippi and to me, this is a 
prime example of bureaucratic red tape at its worst.
    So is it really necessary to repeat the environmental 
impact study on a structure that had a study completed only a 
few years earlier?
    Mr. Fugate. Congressman, I would have to look into that. 
All I can tell you is the general criteria used when you are 
over 50 percent, the story, we have to follow the law which 
requires an environmental review for the investment of the 
Federal dollars.
    However, we have been working and one of the directions the 
President has given us is to speed that process up so we are 
not going through concurrent loops of each Federal agency that 
has a slice of that.
    So we are both trying to improve that process. But again, I 
will have to go back and look. But generally, when we look at 
something that is over 50 percent, we consider that not 
repairs. That may be triggering it. But I will have to get the 
details for you.
    Mr. Palazzo. Well, please do because we already entered 
into the spring season. It would be nice to be able to begin 
construction and have it completed before the summer months.
    Again, I mean, if we did an environmental review just a few 
years ago, and we are not completely rebuilding these 
structures but just repairing them, it would make sense that--
to the taxpayer that it is--why waste additional funds or waste 
time?
    Mr. Fugate. We have been pushing more and more to take 
these type of projects and move them into concurrence where it 
is not requiring formal review. I will have to find out what is 
triggering this on these piers, though.
    Mr. Palazzo. Well, great. Now, going back to flood 
insurance, and this is just something I was thinking about this 
morning, you know, it is--more and more communities are going 
to be mapped into the flood plains, which is of course making 
people much more aware of the possibility of their rates 
increasing.
    The mudslides in Washington--homeowners' insurance does not 
cover mudslides.
    Do you--is it true that you need a flood insurance premium 
to cover that----
    Mr. Fugate. I would need to defer back. I think it depends 
upon if you are talking about shifting soils or actually a mud 
flow, which would be caused by flooding. I would have to go 
back and see if there is a difference. But in general, when you 
have flooding that is producing mud flows that causes that kind 
of damage is considered flood damage.
    Mr. Palazzo. A local insurance agent I was talking to this 
morning did mention that. Real quick, Biggert-Waters 2012 
authorized monthly installment premiums, yet FEMA has not 
implemented this section. Now that H.R. 3370, which is a law 
which was just signed this past Friday, again emphasizes that 
Congress wants homeowners to be able to spread their premiums 
across 12 months, how quickly will FEMA implement monthly 
installment payments for premiums?
    Mr. Fugate. Well, again, I just didn't do as quick as I 
can, but I have to work through the Write Your Owns, which are 
actually in the process of collecting and paying the premiums 
back into the program. So I need to get back to you, 
Congressman. Why does it take us longer?
    Because Write Your Owns actually have to have that 
collection process. One of the concerns has always been, which 
I am not buying is, well, they will only buy it for the months 
that is hurricane season. They won't pay for it the rest of the 
year.
    I am going no, they are buying a full policy. If they don't 
pay all their payments, we are going to go back and see damages 
and get that money back. But I think it is really, you know, 
one of these issues that I kind of look at the same way. Why 
can't we get the installment program?
    I know part of it is to Write Your Own but I need to get 
you more information.
    Mr. Palazzo. Right. To kind of follow up on my colleague 
from the East Coast, he mentioned some mapping concerns. I am 
going to jump through the narrative and just go to the heart of 
my question. What efforts has FEMA taken to ensure accurate 
mapping information is being used?
    Mr. Fugate. We are not doing a very good job of it, sir. We 
are $27 billion in the hole. So somebody has got a flood risk 
that we didn't map right.
    Mr. Palazzo. Well, we are going to have additional 
questions for the record. Yield back.
    Mr. Fugate. Yes, sir.
    Mrs. Brooks. Thank you.
    I now turn it over to the Ranking Member of the committee, 
Mr. Payne, for 5 minutes.
    Mr. Payne. Thank you, Madam Chairwoman.
    You know, I believe I stated it before, but it is just such 
a concern, you know, for the past 2 years. You know, Congress 
has rebuffed FEMA's budget request to consolidate 18 grant 
programs into National Preparedness Grant Program in favor of 
maintaining discrete grant programs, both the preparedness and 
response to terrorism.
    Indeed, in last year's full committee hearing on the Boston 
marathon, Boston bombings, the Boston Police Commissioner Davis 
stated that without the grant funding, response would have been 
much less comprehensive than it was. Without the exercises 
supported through the UASI funding, there would have been more 
people who had died in these attacks. That is a quote.
    So what do you say to the people who are concerned that 
without the discrete program targeting specific capabilities 
that there will be an erosion of terrorism preparedness and 
response?
    Mr. Fugate. Again, to be respectful, Congressman, 
notwithstanding the proposal 3 years in a row, and I may be 
hard-headed, I have never failed to implement what Congress has 
authorized and funded to the letter of the law.
    What this really goes back to is not talking about not 
funding the city of Boston but giving greater oversight and 
following the structures through the States to Boston versus 
bypassing the Governor to the State and including them in that 
process.
    So this is not about taking money away from jurisdictions 
but more giving visibility to the States so they have the 
overall responsibility for those events and that response to 
ensure that all of the issues of the State are funded. They may 
be again, when you look at how we are driving the threat and 
hazard information, it is going to point to these cities.
    But it does give the Governor and the Governor's team more 
oversight responsibilities, hopefully, by increasing 
competitiveness, building more capability in parts of the 
country where it is lacking.
    Mr. Payne. But what if the Governor doesn't see the things 
the way you see them where you have funded these cities because 
of what you have determined and the Governor doesn't 
necessarily agree with you?
    Mr. Fugate. That is the great debate of our country, sir. 
Congress oftentimes finds itself in disagreement with 
Governors. You have the authority as the keepers or the purse 
to make those funding decisions.
    I, however, have to look at this from the standpoint that 
unlike other programs, once a disaster triggers a certain 
level, it falls under the State constitution. The powers that 
originated in that constitution is unique to every State. To 
bypass that can set up and I have seen it set up mismatches 
between how a State operates and how the funding comes down.
    Unlike a lot of other programs, in this case, it is 
authorities vested in the State constitution that drive how a 
State is built, the team--how they are going to prevent that.
    Some States put greater emphasis on the State law 
enforcement, for local law enforcement.
    You have what I call the cities, States, the Bostons, New 
Yorks. Cities of the world that are so large that they are a 
special category by themselves. But they all originate from a 
State constitution.
    Oftentimes, we work around what we don't like about that. 
But in a disaster, I have to work that system and support that 
system to the best of my ability because that is the foundation 
of our response. FEMA does not walk in and take charge.
    Mr. Payne. Right.
    Mr. Fugate. We respond to the request of the Governor and 
support the Governor's response. So this is a reflection 
philosophically of how do we best do that. But also understand 
that we have to look at these threats, not just jurisdiction by 
jurisdiction but across the Nation and understand that we may 
not get hit where we expect.
    But we have the capability to respond outside of these 
areas because we look at Boston. We look at New York as huge 
resources that may be called upon to respond elsewhere in this 
country.
    Mr. Payne. Okay. Well, in New Jersey, well, Newark 
specifically with the UASI grant, they have worked well with 
the State. Keith Isaac has reached back and gone through county 
and have brought them in on the process. So it works--it is 
working backwards well that way.
    We are just not sure if it came into Jersey's situation, if 
it would work back the other way. But that is our problem, I 
guess. But what about the terrorism capabilities are a major 
concern with these grants in the consolidation?
    Mr. Fugate. Again, I think we put emphasis on things that 
are the prevention, things like fusion centers. A lot of this 
information and looking at how you get the best intelligence, 
how do you look at these threats, there is no specific set-
aside for law enforcement because quite honestly, when you do 
25 percent set-aside, is that all they are going to get?
    If you limit it to 25 percent, that is all they will get. 
If you don't put a cap on it, it may be more money on the front 
end. But we have to look at this based upon threats and driving 
this through grant guidance.
    Again, we are more than willing to work with the committee 
in the authorizing language to drive those outcomes so that the 
State implements the desires of Congress reflecting the needs 
of the local communities.
    But again, our ask isn't to go back to a system that goes 
through a consolidation so we can look at this Nationally, not 
just jurisdictionally.
    Mr. Payne. What if it was less?
    Mr. Fugate. That is always going to be the potential. But 
that is a call the State would have to make, and the State 
would be accountable for that to their citizens, and their 
taxpayers and their voters. It is their constitution. It is 
their State.
    Mr. Payne. Thank you, Madam Chairwoman. I yield back.
    Mrs. Brooks. Thank you. The Chairwoman now recognizes the 
gentleman from South Carolina, Mr. Sanford, for 5 minutes.
    Mr. Sanford. Yes, ma'am. Just delve in a little bit deeper. 
If you look at, you know, the overall $10 billion budget, or 
look, very specifically at FEMA, you pick your category. But if 
you were to pick the two areas of biggest waste or duplication 
that jump out at you, what would they be?
    Mr. Fugate. Well, this will make me real popular--beach re-
nourishment. What Mother Nature takes away, we have to put them 
back and on engineering beaches, we spend a lot of money on 
sand. It is one of our largest costs. It is primarily an 
economic issue.
    I understand that. But it is again, in budget constraint 
times. We have to make decisions about when are beaches really 
tied to safety, or are they tied to commerce. I understand the 
arguments on both side. But again, I think we have to look at 
that.
    The other thing is, is the overhead to respond to disasters 
because we have all of these systems built around a 
reimbursement of actual cost. I think we can show significant 
savings because Congress gave us the ability. When you are a 
Governor, when you had some projects, we would go to--come back 
year after year, looking at every dollar you spent authorizing 
it.
    Wouldn't it make a lot more sense--which Congress gave us 
the authority. You have got to rebuild a fire station. Let's 
figure out what it is going to cost and give you the money to 
rebuild that fire station versus waiting until you do every 
project involved in that fire station reimbursement.
    So I think how we look at the overhead of our cost and how 
we look at some things and make some decisions about it would 
be nice to do a lot of things. I think, you know, I am from 
Florida. Beaches are a key part of our economy.
    But again, you can look at beaches versus other things. If 
you have got to make decisions about what you can and can't 
fund, beaches, to me, fall into the category that yes, it is 
important. Yes, it is economic. But it is not National 
security.
    It is generally not public safety unless it is protecting 
some kind of critical infrastructure. It is more economic. Is 
that the best way to fund it, to maintain it, knowing that 
these storms come in and take out a lot of these beach 
improvements? We come back the next year, we are faced with the 
same situation.
    Mr. Sanford. So you would be for ending the re-nourishment 
programs on, for instance, Miami Beach?
    Mr. Fugate. I think you have to look at that or make that a 
local issue that they pay for because it is primarily an 
economic business. If the State of Florida thinks it is 
important, they ought to fund it.
    Mr. Sanford. So sand overhead. But can we get a little bit 
more specific in terms of specific area duplication, just sort-
of jumps out at you?
    You look at the Federal, State, local overlay with regard 
to security perhaps. Or I will give you another--I remember 
seeing sort-of up-close, you look at these contractor lock-ins. 
Efficiency is not one, I guess, a driver at the time of a 
storm.
    But there are a lot of profit margins built into somebody's 
contractor numbers in emergency preparedness, is there 
efficiency that you have seen over the years in terms of best 
practice on that?
    Mr. Fugate. Oh, absolutely. Congressman, you remember, we 
used to--the system was actually weighted more to using 
contractors to pick up debris versus your own folks because you 
couldn't get your straight time out of it. Again, we have 
gotten the Sandy Recovery Improvement Act. That is gone.
    We can--we have the power--we actually did it more during 
the tornadoes in Oklahoma this summer, where instead of forcing 
local jurisdictions that are only using contractors because 
they can get fully reimbursed for that, but they couldn't get 
reimbursed except for their overtime pay.
    We recognize that oftentimes, it will be faster and cheaper 
to use your own public works to pick up debris.
    So right now, South Carolina, after the ice storm, if they 
choose to, they can use a contractor. Or they can use their own 
crews to pick that up and we will not penalize them for using 
what we would call straight time to folks they were already 
paid for but they are doing debris-specific and not resulting 
in that going to the contractor. It is not----
    Mr. Sanford. Can I interject, Madam Chairwoman, that is a 
big point because the degree of money wasted in that particular 
program I thought was particularly egregious in the way that 
you couldn't--I mean, you had the labor force, the capacity to 
work on it. But you would get no reimbursement.
    So you would say let's just do the contractor. So the other 
guys are idling while the money is being spent at the 
contractor level. It is a big deal. But I am sorry for 
interjecting.
    Mr. Fugate. But we currently have implemented that under 
the authorities of Sandy Recovery Improvement Act. We are 
tracking those dollars. I think we are going to be able to make 
a good case to make this permanent as we get to rule-making.
    It is not to say we don't need contractors. But we 
shouldn't take the existing workforce out of the picture 
because we have a rule that says you can only pay overtime when 
this is oftentimes the fastest way to get debris up and the 
most cost-effective.
    Mr. Sanford. Is there a particular stovepipe that you have 
noticed in again, the Federal-State overlay that doesn't work 
as well as you would like to see?
    Mr. Fugate. Well, harken back to the environmental 
historical review piece of that. As the President pointed out, 
there is--we cannot suspend law.
    But we can certainly look at, do we have to have every 
agency do each piece of this sequentially, or can we do 
concurrent reviews, speed this process up, come to consensus on 
some things that we can set aside, and say, these types of 
projects don't require the full review these do but when we do 
it, do it so that it does one for everybody, not each agency 
doing--and if you remember, as Governor, sometimes, you may be 
using HUD dollars, engineering dollars, from the Corps of 
Engineers, FEMA dollars.
    We would all require separate environmental historical 
reviews for the same project. Well, we are past that. We are 
working to make sure that whatever one of these agencies does 
at first, it is sufficient for all of the Federal dollars going 
into that project.
    So we are not repeating these reviews over and over again 
because different agencies had different requirements.
    Mr. Sanford. My time expired. Thank you, Madam Chairwoman.
    Mrs. Brooks. Thank you for bringing to light the 
efficiencies the taxpayers expect us to continue to hone in on. 
So I want to thank you for that question.
    Now, we turn it over to the gentleman from New York, Mr. 
Higgins, for 5 minutes of questions. Thank you.
    Mr. Higgins. Thank you Madam Chairwoman. Many communities 
have flood--National flood insurance program policies. But not 
a single one has been shown new data demonstrating their 
continued need to be in a high-risk flood zone.
    Oftentimes, communities are told by FEMA that if they 
undertake certain flood mitigation projects, the widening of 
channels, the design of new bridges that perhaps have less--
fewer piers, the raising of bridges, other flood mitigation 
initiatives, that those communities are less--there is less of 
a risk of catastrophic flooding, and thus, they come out of the 
high-risk area, thus reducing the premiums that they have to 
pay.
    So I know that remapping is a big part of this program. So 
could you give us a status as to the remapping, when it would 
be finished and what steps FEMA is taking to ensure the 
accuracy in categorizing high-risk flood zones.
    Mr. Fugate. For the record, I would like to respond to you 
in writing because that's a lot of questions. I want to tell 
you something, though, that communities can do without waiting 
for remapping and exists right now. That is the community 
rating system.
    The community rating system is something that they can 
apply for now and get discounts based upon a lot of things they 
do already, maintaining drainage ditches, providing community 
information. The community rating system has a scale of 10 to 
1.
    The lower that number, the more discounts. So just moving 
from a 10 to a 9 will give you a 5 percent across-the-board 
discount for all of your--including your high-risk.
    So not only is it remapping, and I will need to get the 
information about your community, but the community rating 
service is another program that communities can use outside of 
remapping to start applying discounts for things they do to 
reduce the flood risks, storm-water management plans, public 
information, maintenance records, and start getting discounts 
for both businesses and their residential insurance policies.
    Mr. Higgins. That is very helpful. Now, can you get Buffalo 
back in the Urban Area Security Initiative? I yield back.
    Thank you. Thank you, sir.
    Mrs. Brooks. At this time, I turn it over to Ms. Clarke 
from the State of New York for 5 minutes of questions.
    Ms. Clarke. Thank you very much, Madam Chairwoman.
    Under the current Homeland Security grant program, the law 
allows States to pass through 80 percent of the funding to 
locals. Some local governments have indicated that they have 
had little opportunity for input, and sometimes little 
opportunity to consent to State use of the funds.
    How would NPGP address this issue to ensure that local 
governments truly have use of the 80 percent pass-through to 
apply to their specific and unique needs?
    Mr. Fugate. Well, again, it is going to be based upon 
working through the States. I understand the sensitivities 
here. I would refer back, Congresswoman, to the request the 
Ranking Member as well as the Chairwoman to work with you with 
authorizing language to drive those kind of outcomes.
    But I think again, you have to look at the standpoint of in 
some States, State agencies actually provide a lot of the 
capabilities. So the 80/20 rule actually works against those 
States, where maybe the greater resource was a State agency, 
but because we are capped at 80 percent had to go locally, you 
couldn't fund it.
    So again, we will work with the committee.
    But I would strongly recommend, we have to recognize that 
there are 50 States and the territories and the Commonwealth of 
Puerto Rico that it is not always going to be the same.
    I understand that the Northeast with the large city 
structures, why it is different, but it is--again, we have a, 
one program that we are trying to make fit back to the 
structures of the State's role and ensure, though, your desires 
to make sure funding gets to specific issues and specific 
communities based upon threats.
    Ms. Clarke. Yes, it is really challenging. I think we do 
have to acknowledge the nuances because New York City in New 
York State is unique.
    It is very challenging, you know, given whatever dynamics 
may be happening in a State at a given time to have that--not 
have the flexibility in place to be able to address unique 
needs of that particular locality.
    Mr. Fugate. Now, the structure we used in Florida was 
actually having the local jurisdiction set as the teams out of 
various disciplines as peer review. We found the peer review 
process was actually the most effective way. It is kind of one 
thing to say I need something and have all your peers look 
around, going do we really need that in our response and will 
we have gaps?
    So there are mechanisms that some States have used very 
successfully to engage both your local, State agencies but also 
by discipline and a peer review process that drives better 
outcomes than any single arbitrator or one person making these 
decisions.
    Ms. Clarke. So would you then say that peer review process 
should be given some sort of rating that enables to have those 
differences mediated, for instance?
    Mr. Fugate. Again, this would be an opportunity to work 
with the committee in the authorizing language to drive that.
    But my experience has been when I have the subject expert 
sitting at the table--I have got the fire chiefs, the police 
chiefs, the sheriffs, the public health officials, the school 
board officials, the port folks, and they are all sitting down 
there looking at all of their threats, making these decisions 
as a group and having to come to consent on this, it eliminates 
any one agency bias or any one discipline bias.
    I mean, this is what we heard. They will all say, we are 
not getting our share because they are looking at how much the 
Hazmat teams were getting versus the bomb squads. We said, 
well, you can take over the Hazmat mission. This is what suits 
cost.
    They go, we didn't realize it costs that much money. No, 
they can keep that. But oftentimes, if they are not working as 
a team, they are not even aware what other parts the team are 
doing. We found by doing it that way, we didn't plan to build a 
team to respond to the 2004 and 2005 hurricanes.
    But it was definitely that process of looking at how you 
build collaboratively by discipline and local and State, that 
we built the teams and capabilities to respond to, you know, 
four hurricanes in one year. It was Homeland Security-driven.
    But because it was a consensus process, it built 
capabilities that neither the State or locals would have built 
by themselves. Again, it is my bias and my experience that says 
when you do that, you can build a more resilient Nation. I will 
be more than happy to work with the committee to drive that 
kind of outcome.
    Ms. Clarke. Very well, Madam, I yield back the balance of 
my time. Thank you.
    Mrs. Brooks. Thank you very much.
    The Chairwoman now recognizes the gentlelady from Texas, 
Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. I thank the Chairwoman and the Ranking 
Member again. I just have one inquiry. You remember we had a 
discussion some months back about constables. We were talking 
about making sure that they could be the recipient of grants.
    You may not be able to answer it now, but can we please 
collaborate again and see--I think we had some discussions on 
language. That is a law enforcement structure in the State of 
Texas. I have advocated for them being eligible for grants 
during emergency times.
    Mrs. Brooks. Well, and thank you for that reminder. Of 
course, our staff will begin to work with your staff on that.
    I would actually ask Administrator Fugate as he talks about 
the importance of recognizing State and local jurisdictions and 
would wonder whether or not you would like to opine on the 
position of constables while we have you here?
    Mr. Fugate. Well, Madam Chairwoman, this goes back to the 
States. Every State has unique structures that oftentimes 
bypassing those State structures, we don't recognize.
    I think it would be better to give the State greater 
discretion to recognize constables as part of their plan and 
make them eligible for funding.
    But when we define things here, we oftentimes don't take 
into account that States have different provisions. A sheriff 
has different authorities and powers in different parts of the 
country.
    So when you do these things, as part of the challenge of 
how do we make sure that we haven't excluded how a State 
operates under their constitution, and this would be one more 
example of giving greater flexibility so that States can deal 
with unique positions by their laws that would not be 
necessarily be in every State.
    Mrs. Brooks. Thank you. I look forward to working with the 
gentlelady from Texas to learn more about what the 
constable's----
    Ms. Jackson Lee. Responsibilities are.
    Mrs. Brooks. Yes.
    Ms. Jackson Lee. Let me--and thank you very much. I am 
reclaiming my time to--and thank you so much for the courtesy 
to you and the Ranking Member.
    What I would say, Mr. Fugate, is in the instance of Texas, 
I would just say that it was a mistake and it was probably a--
something forgotten without review because our constables 
continually do exercises in Homeland Security around the State. 
But I just want to get that on the record.
    So we are working both directions. But I would offer to say 
sometimes, the Federal Government needs to sort of give a 
little guidance to States when they might have not thought of 
the utilization. So I look forward to collaborating.
    It just brings me back to the decision to consolidate the 
State and local grant preparedness programs by consolidating 
targeted preparedness grant programs into a single pot. The new 
preparedness grant program without requesting sufficient level 
of funding, which is my belief, that there is not sufficient 
level of funding.
    But I would like--as I look at the long list, my perception 
is the sophisticated guys, the sophisticated entities will 
overcome those who are much smaller and less sophisticated; 
i.e., I don't see the Citizen Corps matching up with the Urban 
Area Security Initiative and those who applied for that.
    The Citizen Corps is very important for the time that I 
have have been on this committee, I have talked about the 
Citizen Corps and making it diverse, making it in 
neighborhoods. I am curious, the transit security grants 
matched against the nonprofit security grant program.
    The other issue is, which I agree, is when we sort-of 
organized these different elements, and I know it makes it 
convenient, but Homeland Security was designed after 9/11. It 
was about terrorism. It was about the focus on terrorism.
    I think this is a mistake. It--smudges or it confuses or it 
creates smoke and mirrors, not intentionally, not--this is not 
suggesting the intent of it. But I am talking about from those 
who are applying.
    They have got this big pot. The proficient and efficient 
individuals or entities or jurisdictions will certainly 
overcome some very good idea of some local volunteer 
firefighters. I am just using that as example, beyond the State 
governments.
    Do we have an opportunity to change this? Do you see what 
we are speaking of? Is there any way to bifurcate where you 
have the terrorism elements separated? Do you have enough 
money? Thank you.
    Mr. Fugate. Again, the administration has been asking for a 
consistent level of funding based upon our constraints. But I 
would go back to your question. Again, I think a consensus 
process, where you involve a lot of stakeholders into designing 
these systems gives you a better outcome.
    I do know that those jurisdictions that, again, if you 
remember, the last couple of years, these have been 
consolidated anyway.
    You are listing all the original programs. But the last 
couple of years of actual appropriations has broken it down to 
three broad categories--State Homeland Security grants, the 
urban security area grants and competitive grants for transit 
and ports.
    So Citizen Corps funding hasn't been separated for the last 
couple of years even though it is an allowed expense. Example, 
when I was in New York City, Staten Island, they have a very 
robust community emergency response team there that responded 
throughout the Sandy response.
    Again, it is through the support of their homeland and 
their urban security grants the city had funded those types of 
programs. But the last couple of years through the 
appropriations, we have been actually winnowed down into three 
broad categories of which these are eligible funding under the 
urban security and their State Homeland Security grants.
    Ms. Jackson Lee. Do you think there is sufficient emphasis 
on the terrorism aspect under that structure--under this 
structure?
    Mr. Fugate. Yes, I do. That is part of our threat and 
hazard assessment. But we also have to look at all of the 
threats. When we build capability, is it, again, recognition 
that although we are funding primarily those threats against 
the Nation, that it is designed to be dual use.
    Then again, some of the natural hazards actually have 
National significance that go beyond the traditional Stafford 
Act declaration and reimbursement. There are several notable 
natural hazards. A hurricane coming into the Houston Ship 
Channel, which not only would have damages through the 
hurricane but actually would threaten and disrupt our refinery 
oil shipping in the port.
    Those again have implications far beyond just the damages 
of the hurricane. So those are the reasons why when we look at 
all hazard, some natural hazards can produce threats to the 
country, as great as some of these terrorist threats. We have 
to look at what those responses would require.
    Ms. Jackson Lee. Thank you, Madam Chairwoman. I yield back 
and will continue to inquire. Thank you.
    Mrs. Brooks. Thank you for those questions and for the 
continued focus on terrorism and prevention and response to 
terrorism.
    Administrator Fugate, I mentioned during my opening 
remarks--and I will now recognize myself for 5 minutes--but 
during my opening remarks, I indicated that we had two social 
media hearings in this subcommittee. We once again crowd-
sourced questions for this hearing during the weekly SMEM chat 
on Twitter.
    Some of the chat members, the majority of which have 
extensive experience using social media for emergency 
management purposes, actually had input into some of our 
questions and I appreciate their insights.
    But one concern that we have heard, and I certainly hear it 
and see it as I talk with communities, local communities, and I 
have just visited each of the eight counties in my jurisdiction 
and visited with local elected officials and appointed 
officials, one concern we have is that many local emergency 
management offices sometimes are one-person shops.
    They often lack the communication skills or the resources. 
They don't know how to maintain active social media operations 
and validate the information they receive on social media and 
so forth. So I am curious what you believe FEMA's role is in 
providing assistance.
    Obviously, FEMA does a terrific job on its own as we have 
learned other organizations such as Red Cross. But what kind of 
assistance are we providing in monitoring and updating social 
media sites to affected areas during disasters and how were we 
helping train the first responders in local communities on how 
to effectively incorporate social media into their preparedness 
plans?
    Mr. Fugate. Well, a lot of this I want to respond for the 
record. I won't take a lot of time what we have been doing. We 
have got some tools out there to help bridge that. But I was a 
county director by myself with a tiny budget of 325 bucks, 
besides my salary, when I started this back in 1987.
    I learned a trick.
    Mrs. Brooks. You have come a long way, Administrator 
Fugate.
    Mr. Fugate. But the thing I learned about resource 
shortfalls, or what I called OPM--other people's money. First 
of all, no one emergency manager responds. You have Government, 
private sector, and volunteers.
    So what I would do and what I had to do back then just to 
get out press releases and deal with at that time fax machines, 
was recruit the public information officer from the sheriff's 
office, work with the fire department.
    So again, I think, you know, it is always a staffing issue 
at the local level. You are going to have to look at who else 
in your community you can bring in, including volunteers.
    Mrs. Brooks. If I can ask, so is that the advice and 
recommendations that the Department is giving because that is 
something that I shared with members of these communities is 
that they often have PIOs and----
    Mr. Fugate. Right.
    Mrs. Brooks [continuing]. Mayor's offices or sheriff's 
departments and so forth.
    Mr. Fugate. Again, I think as more agencies are now 
starting to look at how they use social media. We developed two 
training courses. One is a self-study and one is a delivery 
course that we do.
    The challenge with these courses is as soon as you have it 
done, it has moved on. Instagram has now taken off, you know; 
we are still talking about Twitter and Facebook.
    Part of this is engaging other people in the community to 
serve that role.
    But part of it, too, is as we learn techniques and provide 
resources, there are some things that we have been working on 
to consolidate some of the things we are doing that make them 
available to locals, such as being able to consolidate all the 
various official Twitter feeds into one place so that when 
something starts up, the public oftentimes doesn't know who to 
follow.
    So we take the State and then we get from the State all of 
their local feeds and we will build it based upon a particular 
threat so that the public has a place to go to, we call our 
social hub, because a lot of times, you may have social media 
accounts, but nobody knows about it before a disaster. Then 
don't know where to look.
    So we are trying to point back to the best information 
because usually those local officials printing out social media 
so people know that is where it is coming from.
    Mrs. Brooks. But what is FEMA's role in training the local 
officials on what your process is and how they should, you 
know, learn to collaborate and learn to rely upon each other 
and doing this coordination, their training?
    Mr. Fugate. Primarily, it is done through the public 
information officer course training. So specific to public 
information officer training and looking at the independent 
study course that anybody can take. It is free. You can go to 
fema.gov, look up independent study.
    We actually have courses on that, but also participating 
and working--a lot of the expertise isn't at FEMA. It is as you 
know--it is at the practitioner level. So we also try to build 
the networks there, point back to the resource. Again, there 
are a lot of concepts about how do you virtualize this 
information.
    But I think part of the trick is we are trying to move 
beyond. It is just another way to issue a press release. It is 
actually a way to listen to the public, and how do you make 
operational decisions about information that isn't always 
official, but may have some information relevant to changing 
how you are responding.
    Mrs. Brooks. Can you share with us in your experience and 
with the disasters, whether it is the mudslides, whether it is 
Hurricane Sandy or others, what--how much information are 
emergency responders actually getting through social media?
    Mr. Fugate. It depends upon the skill sets and experience 
and we are learning. I will give you an example. We had a 
hurricane that was moving up towards the Carolina coast. 
National Hurricane Center was very concerned there wasn't an 
evacuation.
    Local officials weren't doing much. I was looking at some 
of their tweets. It was interesting, they were saying they 
needed to get all the tourists out. It was a Category 1 
hurricane. So I was able to go back to the hurricane center.
    Oh, they heard you. They know it is a hurricane. They are 
getting their tourists out. They just don't think the threat 
wants them evacuating. So it wasn't that they weren't hearing 
it, but they were taking an action that they weren't expecting.
    It is just sometimes, crowd sourcing can go, here is what I 
said. Here is what the public thinks I said. Now, I can change 
my message and amplify. It is great you are getting the 
tourists out. But oh, by the way, this may be a little bit 
stronger storm. We are still concerned about intensification. 
We can change the message. But if you don't know how the public 
is receiving your information, you don't always know if they 
heard what you thought you meant. That may--you know, in 
Government, that is not something we, you know, never have 
happened to us.
    We say something, and then we don't understand why the 
public didn't understand it. But if you are listening to the 
response, now, you can adjust that message and go okay, maybe 
we need to amplify something or maybe they are not getting 
something we think is critical. We can come back and 
reemphasize that.
    Mrs. Brooks. Thank you. I want to applaud you and FEMA for 
hopefully taking the lead in educating the country about the 
importance of social media during mass disasters or with 
disaster preparedness and response.
    At this time, we are going to a brief round of--a third 
round of questioning.
    I would turn it over to Ranking Member Payne for 5 minutes 
of questions.
    Mr. Payne. Thank you, Madam Chairwoman.
    Now, just to shift back on the conversation we had prior to 
my last round, you know, local police departments and, you 
know, played a crucial role in preventing this terrorism since 
9/11.
    The law enforcement terrorism prevention funding is the 
only funding designated specifically for prevention.
    So I am trying to figure out the rationale for eliminating 
the 25 percent set-aside for law enforcement terrorism 
prevention.
    Mr. Fugate. Again, given the State's ability to prioritize 
across all those threats where they want to put their emphasis, 
whether or not there is additional funds needed there or other 
things that are priority.
    I guess I am coming back to understanding your concern 
about how we make sure these events occur, and that these 
groups have representation, I think is where I would like to 
work with you on the authorizing language.
    My experience was when I had disciplines working and we had 
divided the State up in regions, so we had a lot from rural and 
very populated areas, that process--the State was also 
responsible for but driven by the disciplines and the locals 
gave us a better product than any one group doing it 
independently. So again, I understand the concerns.
    I would be willing to work on the appropriation language. I 
still think we need to come back to looking at going through 
the States and looking at National-driven--what are the 
capabilities and prevention, what funding may be required. That 
is going to be different State by State and merely putting it a 
25 percent. Yes, that is the set-aside.
    But what if it is more? A lot of times if you say you get 
25 percent, that is as much as you will get. If you say this is 
a priority, you need to fund these type activities, it may 
actually drive more investment strategies on that prevention, 
but at the expense of other priorities.
    Mr. Payne. Okay. You know, just a topic that, you know, 
naturally would be very important to me, you know, with 
Hurricane Sandy, and you know, in late October, we know what 
happened along the mid-Atlantic region, including my State of 
New Jersey.
    On January 29, 2013, the President signed a Disaster Relief 
Appropriations Act of 2013, which included approximately $50 
billion in supplemental appropriations to 19 Federal agencies 
for expenses related to consequences of Hurricane Sandy.
    To what extent, you know, have Disaster Relief 
Appropriation Act funds for FEMA program been obligated or 
expended?
    Mr. Fugate. I will respond in writing to the specifics. But 
in general, we focused on the emergency response and debris 
cost because we knew those were the expenses upfront. So where 
we have uncontested, we try to get all those done because that 
is usually the first thing is the jurisdiction has got to pay 
out.
    Those are extraordinary costs. Oftentimes, they have to 
borrow money. So we did the community disaster loan program as 
well trying to fund on the front end as much as that as we 
could get done. So we can give you a report on that.
    Now, as we get into the rebuilding, you have given us a 
couple of tools that we are now starting to get some traction. 
One is using cost estimates versus actual costs. This can sound 
like a very bureaucratic answer.
    But it gives us the ability to go in and get the best 
estimate with the jurisdiction and fully fund the project on 
the front end versus only reimbursing as they go through the 
project. Some of the larger projects are now moving through the 
system to the point where we are getting into closure on what 
that is, we want to build on the mitigation.
    We want to build--and this is the other thing that may be 
slowing us down a little bit--I don't think a lot, but I am 
trying to drive some decisions about not using our traditional 
cost-benefit analysis, always looking to our past to determine 
risk, almost like an insurance model but going, if we are going 
to build back a water pump station or a wastewater pump 
station, we need to build it for the future.
    That may mean a different investment and perhaps more on 
the front end so that we don't come back next storm and have to 
replace or deal with the consequences again.
    Mr. Payne. Okay. You know, I think you have kind of heard 
me loud and clear in terms of I understand you following the 
Constitution and States' rights and that. But I think you have 
seen what has been going on in New Jersey in terms of using 
some of these funds for leverage for reasons other than they 
are prescribed for.
    What kind of oversight does FEMA perform to make sure the 
funds are going where they are needed--most needed and 
guarantees--and grantees are managing the funds effectively?
    Mr. Fugate. Well, for the phase we are in right now, there 
is no direction by the State. If it is damaged and was an 
eligible and declared area, that is determining what is getting 
funded. So there is not a lot of discretion at a State level 
who we are funding.
    We also have been working with the State and local 
jurisdictions on their hazard mitigation plan which we have 
actually been working with the State all the way back to 
Hurricane Irene, where they have had very aggressive programs 
to look at repetitive loss areas to either turn it into green 
space or elevate.
    But for right now, when you talk about our funds, they are 
directly tied to some kind of damages or expenses tied to the 
disaster.
    There is not discretion about prioritizing who gets what 
funding. It is is about where the damages occurred, was it 
eligible in the rebuilding in that area. We will get you the 
numbers on how much you did give us in Sandy and how much has 
been allocated in those categories, versus how much still 
remains to be written.
    Mr. Payne. Okay.
    Madam Chairwoman, I yield back. Thank you.
    Mrs. Brooks. Thank you. I now recognize myself for 5 
minutes.
    So just to clarify, you are indicating that right now, the 
funds that really the State of New Jersey does not have much 
discretion, that the funds that the Ranking Member is referring 
to as being directed by FEMA?
    Mr. Fugate. It is being directed by where there is damages. 
The State is the grantee. You had some grantees applying for 
it. But who determines that funding is based upon your county 
that was declared. You have eligible damages.
    As those communities get those figures in, we are making 
those reimbursements. Again, part of that is tied to the Sandy 
Recovery Improvement Act.
    So we are actually speeding up some of those areas that 
previously took longer time. So what will be interesting is 
where we are at now is to kind-of give you a comparison of what 
the spending looks like now for permanent work versus some of 
the other disasters we have worked.
    Mrs. Brooks. Then something that had to come up and not 
only in my jurisdiction but obviously in many others is the 
issues about flood insurance and under the new law, that it 
created a flood insurance advocate for homeowners.
    The purpose is to provide homeowners with a single point of 
contact at FEMA who could help them begin to answer so many of 
these questions that so many of us in Congress certainly have.
    So could you please share with us what are the--what are 
FEMA's current plans for standing up that office and what might 
we anticipate being the implementation time line?
    Mr. Fugate. We actually began looking at this when the 
language was actually being still drafted. We agreed this is a 
good idea. I will tell you, better be more than one person.
    So we are looking how to establish----
    Mrs. Brooks. I agree.
    Mr. Fugate [continuing]. Within the flood insurance program 
a separate advocacy group so that their reporting structures 
and their evaluation structures aren't tied to other program 
goals and objectives. We want to have this set up so they are 
independent to that process, although it will be part of the 
flood insurance program.
    I will have to respond back in writing, Madam Chairwoman, 
where we are at on that. But we began looking at that as you 
began promoting that in the House language. We agree it is a 
good idea. But part of it, too, is making sure that is staffed 
adequately and that when we start that program up, it has the 
bandwidth to handle the amount of customer interaction we 
expect.
    Mrs. Brooks. To follow up on that with respect to that, the 
new law also requires FEMA to certify when it has implemented a 
flood map being programmed based on review of the technical 
mapping advisory council, so while it was created in 2012 by 
Biggert-Waters law, to this point in time, I believe that 
council has not yet been established by FEMA.
    So what do you anticipate is the time line on standing up 
that very important council so it can begin reviewing and 
improving the accuracy of what most of us do refer to as FEMA's 
flood maps?
    Mr. Fugate. The technical advisory committee draft 
structure and pilot and rules were created; we have actually 
solicited the applications. We are in the process of making the 
appointments. I don't have the date for the first meeting.
    But we were in the process of implementing that so that 
there has already been a solicitation for membership and the 
appointments of that membership. I will just have to get back 
to you when their first scheduled meetings are going to start.
    Mrs. Brooks. We thank you for that. Again, as you could 
tell from many Members on the subcommittee and really across 
the country, the issues involving the flood mapping and the law 
that was just signed into law last week are so very critical 
across the country.
    We want to work with you to try to ease the pain that this 
has caused so many homeowners across the country.
    Well, with that, I want to thank you so much, Administrator 
Fugate, for your valuable testimony.
    It is so very clear to me and to anyone listening that your 
local, State, and Federal experience is so very valuable as you 
lead this agency which has--which sees, it seems, more and more 
action regularly across the country, and want to support you 
and appreciate your responses to questions about your budget.
    Members of the subcommittee may have additional questions 
for you and we will ask that you respond to those in writing in 
addition to those that you have already indicated. So just want 
to thank you for your service. We hope to be very helpful.
    This agency is so critically important to countries or to 
communities all across the country. I want to thank you for 
your service.
    Pursuant to committee rule 7(e), the hearing record will be 
open for 10 days. Without objection, the subcommittee stands 
adjourned.
    [Whereupon, at 11:48 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

     Questions From Chairwoman Susan W. Brooks For W. Craig Fugate
    Question 1a. Last year this subcommittee held two hearings on how 
social media is transforming the way the Nation prepares for and 
responds to disasters. One concern we heard was that some local 
emergency management offices are a one-person shop and lack the 
resources, or know-how, to maintain active social media operations and 
validate information they receive on needs for assistance.
    Does FEMA provide assistance in monitoring and updating social 
media sites to affected areas during a disaster?
    Answer. Yes, we provide social media support as needed and 
requested by States during a disaster. Emergency Support Function 15 
(External Affairs) ensures coordinated and consistent outreach across 
all communication channels. Social media is part of ESF-15, so we 
routinely share social media plans and insights with our partners 
during the response. This is typically coordinated through the State, 
local, or Tribal Public Information Officer (PIO) or Public Affairs 
point of contact, who depending on the level of the disaster, are 
seated in the Joint Information Center (JIC).
    Question 1b. Does FEMA provide training to first responders on how 
to effectively incorporate social media into their current operations?
    Answer. Through our ten regional offices, we frequently share 
social media best practices and offer informal training with partners 
at all levels of government. We also engage with our stakeholders and 
partners through various association meetings and conferences, in which 
social media is focus or topic as a break-out session to include best 
practices and lessons learned.
    Available courses:
  <bullet> Social Media for Natural Disaster Response and Recovery.--
        Course at National Disaster Preparedness Training Center. This 
        course is listed in the FEMA Training & Education Division 
        catalog and is given on a regular basis to those at the city/
        State level who request the course.
  <bullet> IS-42: Social Media in Emergency Management.--EMI course. 
        Free, web-based course that anyone can take to give them an 
        overview of how social media impacts emergency management.
    Additionally, the Science and Technology Directorate's First 
Responders Group established the Virtual Social Media Working Group 
(VSMWG) in December 2010 to provide guidance and best practices drawn 
from a cross-section of subject-matter experts from Federal, Tribal, 
territorial, State, and local responders. For example, VSMWG's Lessons 
Learned: Social Media and Hurricane Sandy report provides an overview 
on how social media was used in preparation for, in response to, and in 
recovery from Hurricane Sandy. The report is available at https://
communities.firstresponder.gov/DHS_VSMWG_Lessons_Learned_Social_- 
Media_and_Hurricane_Sandy_Formatted_June_2013_FINAL.pdf.
    Question 2a. On January 29, 2013, the President signed into law the 
Disaster Relief Appropriations Act that provided $50.5 billion for 
Hurricane Sandy assistance. Shortly after, the Office of Management and 
Budget issued a memo that, among other things, stated that, `` . . . 
Federal departments and agencies must ensure that the funds 
appropriated under the Act be used for their intended purposes.'' To 
me, wasting taxpayer dollars is simply inexcusable. In June of last 
year, I wrote a letter to you regarding potential improper payments 
within the FEMA Public Assistance Program--although I received an 
interim response to that letter in November, I have yet to receive a 
final response.
    How can Members of this subcommittee be assured that the money 
appropriated to FEMA will be properly spent, without the kind of waste 
we have sometimes in the past?
    Question 2b. What has FEMA done since Hurricane Katrina to curb the 
occurrence of improper payments throughout the agency?
    Answer. For Individual Assistance programs, FEMA has implemented 
multiple system and operational enhancements and lessons learned from 
the 2005 Gulf Coast disasters to provide prompt service while 
minimizing the risk of improper payments. The GAO found in their 2009 
audit regarding Improvements to Internal Controls for FEMA Registration 
Process that ``data from more recent disaster shows substantial 
improvements in internal controls, resulting in far fewer instances of 
payments being made to registrations with duplicate and invalid key 
data.''
    FEMA has worked diligently to put protections in place that will 
safeguard against waste, fraud, and abuse, and significantly reduce the 
percentage of improper payments. New processes have been developed in 
order to improve the identification, reduction, and recovery of 
improper payments disbursed to Federal disaster assistance applicants.
    First, FEMA now has the ability to validate the identity of 
individuals who register for assistance through electronic data 
verification prior to receiving any Individuals and Households Program 
(IHP) financial assistance. This verification is performed along with 
automated checks of applicant occupancy and ownership during the 
application process through LexisNexis. Therefore, identity, occupancy 
and ownership verification checks are now conducted electronically 
during the application process prior to the distribution of disaster 
assistance.
    Second, FEMA has focused on the increased prevention of improper 
payments by developing new information management procedures in our 
National Processing Service Centers (NPSCs). The NPSCs have worked with 
the Office of Chief Information Officer to improve the National 
Emergency Management Information System (NEMIS) software used to 
process applications for disaster assistance. These actions include:
  <bullet> Using identity and occupancy verification checks to prevent 
        automated payments to applicants who may have used a fraudulent 
        name, SSN, or address;
  <bullet> Flagging ``high-risk'' addresses such as check-cashing 
        stores, mail drops, cemeteries, and jails to block them from 
        receiving automated payments;
  <bullet> Blocking duplicative rental assistance payments for 
        overlapping months or payments over the IHP maximum;
  <bullet> Stopping duplicative registrations over the internet to 
        prevent duplicate payments to the same applicant;
  <bullet> Improving the NEMIS business rules to prevent duplicate 
        payments to applicants at the same address; and
  <bullet> Adding a NEMIS direct assistance module to track individuals 
        in mobile homes or travel trailers in order to prevent the 
        provision of financial rental assistance to applicants who were 
        already housed by FEMA.
    Third, FEMA has focused on the increased prevention of improper 
payments by instituting organizational changes which have further 
contributed to the decreased error rate:
  <bullet> FEMA established the IHP Assistance Group in 2008 at the 
        NPSCs to provide clear, consistent, and timely guidance 
        regarding IHP policies and case processing procedures in order 
        to reduce case processing errors, improve operational 
        efficiency and overall delivery of service.
  <bullet> The NPSCs have established specialized teams of employees 
        referred to as Specialized Processing Groups dedicated to the 
        processing of some of the more difficult cases, such as appeals 
        and recoupments.
  <bullet> The NPSCs have expanded the Quality Control group to include 
        reviews of special projects and new case processing procedures. 
        This has enabled the NPSCs to rapidly identify problems with 
        projects and new processing guidelines and take remedial action 
        as necessary.
  <bullet> The NPSCs have established an Audit Group responsible for 
        performing internal audits and analysis on the efficiency and 
        effectiveness of the manner in which IHP is administered by the 
        NPSC enterprise.
  <bullet> The NPSCs have updated their IHP credentialing training 
        curriculum to include changes in IHP policy and case processing 
        procedures. In 2009, all NPSC staff involved in manual case 
        processing received re-credentialing training and refresher 
        courses in 2012.
    The combination of these improvements has resulted in a reduction 
of the error rate in financial assistance from 14.53 percent following 
Hurricanes Katrina and Rita to just .3 percent for fiscal year 2011.
    As a part of the overall effort to ensure the Public Assistance 
program is implemented in a consistent and effective manner the 
following initiatives were implemented:
  <bullet> PA Field Operation Pocket Guide.--In June 2012, the PA 
        Division published the updated Field Operations Pocket Guide to 
        provide direction on a consistent approach on PA program 
        delivery. It describes the fundamentals to be followed in PA 
        field operations Nationally to streamline the process for more 
        efficient program delivery.
  <bullet> PA Mid-Level Managers.--The PA Division launched the PA Mid-
        level Manager initiative to identify, hire, and train a 
        dedicated group to serve as mid-level managers during large-
        scale PA disaster operations. The cadre promotes consistency by 
        identifying and resolving PA Program implementation and policy 
        issues through engagement with stakeholders, and coordination 
        with Headquarters, to ensure the consistency of policies, 
        guidance, and training. This cadre is used as a core group of 
        experienced PA program managers that can be deployed as teams 
        in the event of a National large-scale disaster or support 
        regional disaster activity as required.
    <bullet> Reviewed approximately 500 resumes for the Mid-level 
            Managers Positions
    <bullet> Conducted approximately 200 interviews in fiscal year 2013
    <bullet> Identified and hired 80 Mid-Level Managers
    <bullet> Trained and deployed approximately 44 in support of 
            disaster operations
    <bullet> Approximately 35 remain in various stages of on-board, 
            pending training, and pending deployment.
  <bullet> PA Consistency Training.--The PA Division instituted the PA 
        Consistency Training Initiative to train FEMA, and State, 
        Tribal, and local governments on the PA Pocket Guide, EMMIE and 
        Public Assistance Program Training to promote consistent 
        implementation of the PA Program. To date the PA Division has 
        provided the following consistency training:
    <bullet> Approximately 3,000 FEMA, State, local, and Tribal staff 
            trained in the PA Consistency Training which includes 
            training in the PA Pocket Guide, Emergency Management 
            Mission Integrated Environment (EMMIE) and PA Dashboard.
    <bullet> Provided in-person or video teleconference (VTC) training 
            in all FEMA Regions training an estimated:
    <bullet> 1,900 FEMA, PFT, CORE, and Reservist
    <bullet> 500 State participants
    <bullet> 300 Local participants
    <bullet> 20 Tribal participants
    <bullet> 230 PA Technical Assistance Contractors.
    As a result of these new measures that have been implemented, the 
improper payment rate for PA grants decreased from 5.48% in fiscal year 
2008 to 2.78% in fiscal year 2012. FEMA will continue to work to 
further reduce this number.
    Question 2c. Earlier this month, residents in Indiana reported 
receiving alerts on their cell phones about a tornado, and instructing 
them to take shelter. However, this alert came more than 100 days after 
the tornado outbreak across Indiana. Although we appreciate the value 
of alerts, we also understand that either over-warning, or incorrect 
warnings, can cause harm and desensitize citizens to these alerts. How 
can we be assured that citizens are not over-alerted to the point that 
they become desensitized to the warnings they are receiving? How can we 
be assured that alerts and warnings are not going out, as this one 
apparently did, when there is no imminent danger?
    Answer. The Federal Emergency Management Agency's (FEMA) Integrated 
Alert and Warning System (IPAWS) division worked with the National 
Oceanic Atmospheric Administration's (NOAA) National Weather Service 
(NWS), and an alerting system vendor used by Indiana to supplement the 
State Emergency Alert System relay network with the goal to determine 
the root cause of the unintended alert. The investigation revealed that 
the vendor system retrieved a test message from a separate NWS news 
feed and then sent it directly to the local broadcast stations. The 
test message included portions of a test tornado warning originated to 
support several State-wide tornado drills in the region. FEMA IPAWS was 
not involved in the errant tornado warning.
    Both FEMA and the NWS recommend that any parties monitoring NWS 
products for alert distribution first ensure that they are ingesting a 
proper NWS product to suit their needs and further that they establish 
systems which examine incoming messages for proper structure and 
content prior to distributing them.
    Question 2d. Last year, in Montana, alerts were sent out warning of 
a ``zombie apocalypse.'' This hoax was perpetrated by hackers, but 
demonstrates that the IPAWS system is vulnerable and could potentially 
be used in a real emergency to mis-inform the public. How can we ensure 
that the IPAWS system is secure and only used for its intended purpose?
    Answer. The zombie-type messages that were broadcast by some radio 
and television stations in February 2013 were a result of poorly-
implemented security at those local radio and TV stations.
    The integrity of the National alert and warning system components 
of FEMA's Integrated Public Alert and Warning System (IPAWS) were not 
compromised. However, FEMA is concerned about the integrity and 
security of alert and warning stations and equipment even when those 
systems are outside of the direct control of FEMA. We have worked to 
add emphasis to security awareness and practices in our stakeholder 
outreach programs and available training products as well as continuing 
to work with partners and stakeholders to improve the security and 
public confidence in alert and warning systems that are associated with 
the IPAWS.
    Question 3a. The fiscal year 2015 budget proposes to eliminate the 
Pre-Disaster Mitigation (PDM) grant program. However, at the same time, 
the administration's Opportunity, Growth, and Security Initiative 
(OGSI) proposal includes $400 million in competitive grants to State, 
local, and Tribal governments through the authorities of the Pre-
Disaster Mitigation program. Can you please explain why the 
administration would propose to eliminate a program while at the same 
time adding $400 million to it? Would this proposed $400 million be 
used for the same types of projects currently allowable under the 
current PDM program?
    Administrator Fugate, for several years, FEMA has sponsored the 
FEMA Think Tank, an on-line forum and in-person discussion sessions 
aimed at generating innovative solutions to emergency management 
issues.
    What ideas that have come out of these sessions?
    Question 3b. How these have translated into FEMA being able to 
fulfill the administrator's Intent?
    Answer. FEMA administers the Flood Mitigation Assistance (FMA) 
program, which is a Pre-Disaster Mitigation program that focuses on 
eliminating damage to structures caused by flooding. The President 
budget includes funding for this program in fiscal year 2015. The 
Hazard Mitigation Grant Program is a post-disaster mitigation program 
which funds the development of State and local Hazard Mitigation Plans 
in addition to all-hazard mitigation projects. With funding for both 
the HMGP and FMA programs, FEMA will continue to work aggressively to 
ensure that States and communities take advantage of the opportunity to 
reduce the Nation's disaster losses through pre-disaster mitigation 
planning, and the implementation of planned, pre-identified, cost-
effective mitigation measures.
    Enactment of the Opportunity, Growth, and Security Initiative 
(OGSI) would provide $400 million for FEMA's Pre-Disaster Mitigation 
program. Funding would support competitive grants to State, local, and 
Tribal governments through the Pre-Disaster Mitigation program. This 
program provides grants for eligible mitigation planning and projects 
that reduce disaster losses and protect life and property from future 
disaster damages. Besides planning grants the OGSI would provide cost-
effective project grants to reduce flood losses, structure elevation, 
retro-fitting of existing buildings, soil stabilization; and management 
costs for the State to help administer mitigation programs.
    Projects that propose mitigation to address climate change weather 
extremes such as winter storm severity; land-slides; flooding; 
earthquake; tsunami; and, drought for example will receive additional 
consideration.
    As highlighted in the Administrator's Intent for fiscal year 2015-
19, FEMA is focusing on a strategic imperative that stresses the need 
to ``Foster Innovation and Learning'' within the agency. In recognition 
of growing challenges and fiscal constraints, we are working to advance 
a culture that better fosters improvement, innovation, invention, and 
learning. As one example, FEMA established the Think Tank to help 
foster innovation throughout the emergency management community through 
bringing together leading entrepreneurs, technologists, academics, 
stakeholders, and subject-matter experts from diverse fields to offer 
fresh perspectives and new approaches. Specific FEMA Think Tank 
discussions have focused on a range of topics, including public-private 
partnerships, the use of innovative response technology in disaster 
operations, and examples of innovation that arose out of Hurricane 
Sandy. FEMA Think Tank and the innovative efforts it has sparked across 
the agency, include the use of new backup communications systems in 
disaster zones, discussion of electrical alternatives for individuals 
that use power-dependent medical equipment, and collaboration on 
increasing the efficiency of evacuations. Additional discussions are 
being translated into innovative approaches at FEMA, including the 
following examples:
  <bullet> OpenFEMA.--The Federal Emergency Management Agency open 
        Government initiative and a modernization project developed 
        through Congressional appropriations that embrace the tenants 
        of transparency, participation, and collaboration to support 
        citizens and first responders to increase Government 
        accountability, innovation, and effectiveness. Led by Ted 
        Okada, FEMA's Chief Technology Officer, OpenFEMA was launched 
        in October 2012 within the Office of the Chief Information 
        Officer (OCIO) with the mission to expand and promote a culture 
        of open Government among FEMA and the whole community in 
        support of the Nation's ability to prepare for, protect 
        against, respond to, recover from, and mitigate all hazards. 
        OpenFEMA's goals are to release data for public consumption, 
        and engage with external partners to leverage FEMA's data to 
        help achieve meaningful results and improve operational 
        outcomes in support of first responders, those supporting 
        disaster survivors, and the disaster survivors themselves.
    <bullet> The OpenFEMA team, the FEMA Think Tank, and FEMA's 
            Innovation Team have all worked together to encourage a 
            culture of innovation within FEMA. For example, shortly 
            after Hurricane Sandy made landfall, FEMA's Innovation 
            team--a multi-sector, cross-functional group made up of 
            people in Government, non-profit, volunteer groups, 
            business, and concerned citizens--deployed and spread out 
            through the affected areas, working alongside FEMA 
            employees to identify real-time challenges. The Whole 
            Community partners needed a shared space to virtually 
            connect and leverage their resources to solve issues. The 
            newly-created OpenFEMA team quickly responded and within 48 
            hours of request provided the a virtual space that allowed 
            the innovation response team members with different domains 
            and access points to efficiently collaborate, spurring 
            innovative ideas, reducing emails and share resources that 
            supported disaster survivors. Examples of solutions the 
            Innovation team developed on the virtual space and 
            implemented include but are not limited to the following: 
            Providing internet connection at Red Hook, Rockaways, 
            Staten Island, and other affected communities which allowed 
            FEMA Corps volunteers to go door-to-door and register 
            disaster survivors from their door-steps; and freed-up 
            mobile communications Operations Vehicles (MCOVs) to go 
            into other affected areas. MCOVs are a limited resource.
    <bullet> OpenFEMA supported the development of an open-source urban 
            search and rescue app following the Moore, OK tornado 
            through our participation at the National Day of Civic 
            Hacking. This event was held across 86 cities across the 
            country, bringing together thousands of designers, 
            developers, entrepreneurs, and private citizens to help 
            solve challenges relevant to their communities. A few days 
            prior to the event, the category 5 tornado hit Oklahoma 
            spurring FEMA into action. Although OpenFEMA already had a 
            concept they would be working on, they quickly used their 
            resources to support the local innovative community 
            participating in the Tulsa, OK event, which resulted in the 
            development of an open-source urban search and rescue 
            application to assist local Urban Search and Rescue (USAR) 
            teams. This application recently received the White House 
            Champions of Change award.
    <bullet> Recently, OpenFEMA hosted the first-ever FEMA Data Town 
            Hall (FDTH), a brainstorming workshop that brought together 
            key internal stakeholders, such as agency knowledge 
            experts, with selected external stakeholders (partners, 
            first responders, developers, and innovators) to 
            collaborate on an issue and develop solutions using FEMA's 
            data. At the end of the town hall each team presented what 
            they discussed, learned, and made a commitment to bring 
            their concept to market within 90 days of the event. Learn 
            more about the event on the FEMA blog.
  <bullet> Hurricane Sandy Innovation.--FEMA utilized some innovative 
        approaches during the response to Hurricane Sandy--several 
        examples follow below.
    <bullet> FEMA Community Relations Staff and Disaster Survivor 
            engagement with mobile devices.--The FEMA Community 
            Relations personnel facilitated a pilot program of 
            employing iPads to bring the FEMA registration process to 
            Disaster Survivors through direct community relations 
            engagement. By utilizing mobile devices ``on the street,'' 
            FEMA was able to bring the on-line registration website in 
            person to disaster survivors, allowing them to register on 
            the spot.
    <bullet> Innovation Team--Sandy.--The administrator's office lead a 
            pilot operation to coordinate non-profit and NGO 
            organizations on the ground in select parts of New York 
            City. The Innovation Team used a centralized collaboration 
            tool to coordinate open-source innovation planning around 
            activities like communications, recovery centers, housing, 
            community engagement, and volunteer management.
    <bullet> FEMA GeoPortal.--Mission-Critical operational data was 
            made available via a public geospatial portal that was 
            primarily operated by the FEMA geospatial work force. The 
            GeoPortal relied on FEMA operational data but also some 
            crowd-sourced and other open data sources. New innovations 
            centered around the delivery of over 150,000 Civil Air 
            Patrol photos as well as over 137,000 geospatial damage 
            assessments.
  <bullet> Tech Corps program.--FEMA's Private Sector Division has been 
        using the IdeaScale portion of the FEMA Think Tank as a way to 
        soft sound preliminary concepts as the team builds a new Tech 
        Corps program. Tech Corps is based on the concept of 
        integrating trained volunteers from major companies to support 
        State and local partners with priority technology gaps after a 
        disaster. Given the technology focus of the new program, 
        IdeaScale was a logical tool for starting a conversation on 
        topics like the appropriate roles and responsibilities of 
        volunteer technology teams in response and training 
        requirements. It has also allowed potential Tech Corps members 
        to take an active role in shaping the program. While the Tech 
        Corps program is still in a fledgling stage it is an example of 
        a program that will benefit from crowd-sourced knowledge and 
        information sharing, such as can be obtained through programs 
        like the FEMA Think Tank, which foster and exchange of 
        knowledge.
    Question 4a. One of the Sandy Recovery Improvement Act's provisions 
created greater flexibility within the Public Assistance Program. FEMA 
has implemented a pilot program known as the Public Assistance 
Alternative Procedures (PAAP).
    Can you please provide the subcommittee with an update on how this 
pilot program is going?
    Answer. Under the SRIA, Section 428--Public Assistance Program 
Alternative Procedures, there are two broad areas that the alternative 
procedures address: Debris removal activities and permanent work 
activities. Thus, FEMA is implementing two (2) separate pilot programs:
  <bullet> Public Assistance Alternative Procedures Pilot Program for 
        Debris Removal (Debris Removal Pilot);
  <bullet> Public Assistance Alternative Procedures Pilot Program for 
        Permanent Work (Permanent Work Pilot).
    The Debris Pilot was initially implemented during the Oklahoma 
tornadoes in May 2013, and Nationally implemented for all disasters 
declared on or after June 28, 2013. The Permanent Work Pilot was 
effective for major disasters declared on or after May 20, 2013, and 
for projects in previously-declared major disasters where construction 
has not yet begun; thereby, providing opportunities for projects in 
Hurricane Katrina and Hurricane Sandy.
    FEMA has developed 12 reference documents for State, Tribe, local 
governments and eligible private non-organizations. These are available 
on-line: http://www.fema.gov/alternative-procedures. FEMA has developed 
Assessment Plans for both pilots. FEMA has modified its data system--
the Emergency Management Mission Integrated Environment (EMMIE)--in 
order to collect and track the data for the progress report. FEMA has 
developed SharePoint access for the Regional and JFO staff to provide 
quantifying data that is not collected in EMMIE, such as the number of 
debris management plans\1\ received and reviewed by FEMA. As to another 
alternative procedure, FEMA established an Expert Panel \2\ to review 
projects over $5 million in Federal share for applicants requesting an 
independent validation of the cost estimate. FEMA has offered more than 
40 training sessions on the pilot program to approximately 1,400 FEMA, 
State, Tribal, and local government officials.
---------------------------------------------------------------------------
    \1\ Relevant to the debris management plan alternative procedure, 
FEMA has received 185 debris management plans; accepted 45; determined 
64 insufficient; and 76 plans are pending review. Under this procedure, 
FEMA can provide a one-time 2% cost share increase for applicants that 
have a FEMA-reviewed debris management plan and at least one pre-
qualified debris contractor.
    \2\ FEMA has established agreements with U.S. Army Corps of 
Engineers (USACE) to use their Center for Cost Excellence to serve as 
the third-party Expert Panel to validate estimates.
---------------------------------------------------------------------------
    Question 4b. How many Public Assistance applicants have taken 
advantage of the portion of this program that allows grants to be made 
on estimates?
    Answer.
Debris Removal--Alternative Procedure Pilot
(The responses below are based on activity since the inception of the 
pilot program.)
  <bullet> Four hundred thirty-nine of 652 applicants (or 68%) are 
        using one or more of the Debris Removal Alternative Procedures, 
        and 27 of 32 (or 84%) disasters have debris pilot subgrants.
  <bullet> Fifty-one-point-five million dollars of $59.4 million in 
        debris costs are attributed to subgrants with one or more of 
        the Debris Removal Alternative Procedures (86% of the debris 
        funds included elements of the Debris Removal Pilot).
Permanent Work--Alternative Procedure Pilot
  <bullet> Over 25 applicants have committed to Permanent Work Pilot 
        projects.
  <bullet> Seventeen disasters have Permanent Work Pilot Projects (8 
        prior to May 20 and 7 post-May 20, which is the date the 
        Permanent Work Pilot was initiated and published.)
  <bullet> One hundred five projects have been obligated for $139 
        million.
  <bullet> Eighty-eight projects for $4.1 billion (includes Hurricane 
        Sandy in NY and Hurricane Katrina in LA) are in project 
        formulation.
    Question 4c. What are the impediments to implementation?
    Answer. Since the pilot's inception, the magnitude of declared 
events is less than the 10-year average. FEMA evaluated the Debris 
Removal Pilot numbers and the level of disaster costs in the last 10 
years (from 2003 to 2013) using the same time period from June 28 to 
December 31. The typical per-event average for this time frame within 
the 10-year period is $32.4 million.
    In contrast, we have quantified an average $1.8 million in debris 
removal costs for major disasters eligible to use the Debris Removal 
Pilot within the same time frame. This represents 6% of the 10-year 
average because, based on a 6-month time frame in a single year, the 
debris removal costs since the inception of the pilot program are 93% 
less than our 10-year average.
    FEMA has not encountered impediments in implementing the Debris 
Removal Pilot. FEMA continues to collect the necessary data in order to 
promulgate regulations and gauge the effectiveness of the pilot.
    The Permanent Work Pilot is gaining momentum. The funding structure 
under the Permanent Work Pilot is a paradigm shift: Going from 
reimbursement based on actual costs to committing to a grant based on a 
fixed estimate. FEMA is actively engaged in both educating applicants 
about the pilot and in project formulation. These efforts have 
contributed to significant commitments to grants based on fixed 
estimates.
    To date, FEMA has not encountered impediments in implementing the 
Permanent Work Pilot.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
